No. _______
In The

Supreme Court of the United States
-------------------------- ♦ ---------------------------

CAPITAL ASSOCIATED INDUSTRIES, INC.,
Petitioner,
v.

JOSH STEIN, in his official capacity as Attorney
General of the State of North Carolina, NANCY
LORRIN FREEMAN, in her official capacity as
District Attorney for the 10th Prosecutorial
District of the State of North Carolina, J.
DOUGLAS HENDERSON, in his official capacity
as District Attorney for the 18th Prosecutorial
District of the State of North Carolina, and
THE NORTH CAROLINA STATE BAR,
Respondents.
-------------------------- ♦ --------------------------

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit
-------------------------- ♦ --------------------------

PETITION FOR A WRIT OF CERTIORARI
-------------------------- ♦ -------------------------Charles E. Coble
Julia C. Ambrose
Craig D. Schauer
Eric F. Fletcher
BROOKS, PIERCE, MCLENDON,
HUMPHREY & LEONARD LLP
150 Fayetteville Street, Suite 1700
Raleigh, NC 27601
(919) 839-0300

Reid L. Phillips
Counsel of Record
Jennifer Van Zant
BROOKS, PIERCE, MCLENDON,
HUMPHREY & LEONARD LLP
2000 Renaissance Plaza
230 North Elm Street
Greensboro, NC 27401
(336) 373-8850
rphillips@brookspierce.com

Counsel for Petitioner

Dated: August 30, 2019

i
QUESTIONS PRESENTED
In United Mine Workers of America, District 12 v.
Illinois State Bar Association, 389 U.S. 217 (1967),
the Court held that the First Amendment provides a
labor union—a non-profit association of employees—
“the right to hire attorneys on a salary basis to assist
its members in the assertion of their legal rights.” Id.
at 221-222. Yet in North Carolina, it is a criminal
offense for a non-profit association of employers, such
as Petitioner Capital Associated Industries, Inc. (the
“Association”), to hire attorneys on a salary basis to
assist its members with legal questions.
More recently, the Court held in National Institute
of Family and Life Advocates v. Becerra, 138 S. Ct.
2361 (2018), that lower courts should apply strict
scrutiny to professional licensing regimes that censor
speech based solely on its content. Yet the lower court
characterized North Carolina’s content-based
censorship of the Association’s speech as a conduct
regulation with only an incidental impact on speech,
and applied lesser scrutiny.
The questions presented are:
1. Do the North Carolina statutes prohibiting the
Association’s attorneys from providing legal
assistance to its members violate the freedom of
association guaranteed by the First and Fourteenth
Amendments?
2. Are the North Carolina statutes prohibiting the
Association’s attorneys from providing legal
assistance to its members a content-based restriction
on speech that must be reviewed under strict
scrutiny?

ii
PARTIES TO THE PROCEEDINGS
Capital Associated Industries, Inc. was the
plaintiff in the district court and appellant in the
court of appeals.
Defendants Josh Stein, Nancy Lorrin Freeman,
and J. Douglas Henderson were defendants in the
district court and appellees in the court of appeals.
Defendant North Carolina State Bar was
intervenor-defendant in the district court and
appellee in the court of appeals.
CORPORATE DISCLOSURE STATEMENT
Petitioner Capital Associated Industries, Inc. is
a non-profit corporation with no parent corporations.
No publicly held company owns 10% or more of its
stock.
RELATED PROCEEDINGS
United States District Court (M.D.N.C.)
Capital Associated Industries, Inc. v. Stein, No.
1:15-cv-83 (Sept. 19, 2017)
United States Court of Appeals (4th Cir.)
Capital Associated Industries, Inc. v. Stein, No. 172218 (Apr. 19, 2019)

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
PARTIES TO THE PROCEEDINGS ......................... ii
CORPORATE DISCLOSURE STATEMENT ............ ii
RELATED PROCEEDINGS ...................................... ii
TABLE OF CONTENTS............................................iii
TABLE OF AUTHORITIES ...................................... vi
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
CONSTITUTIONAL PROVISIONS INVOLVED ..... 1
STATUTORY PROVISIONS INVOLVED ................. 2
INTRODUCTION ....................................................... 3
STATEMENT.............................................................. 6
A. Capital Associated Industries .................... 6
B. North Carolina Law.................................... 9
C. District Court Proceedings ....................... 10
D. Appellate Court Proceedings .................... 11
REASONS FOR GRANTING THE PETITION ....... 13
I. THE FIRST QUESTION PRESENTED IS
EXCEPTIONALLY IMPORTANT ................ 13
A. The First Amendment Right To
Association Varies By Jurisdiction ........... 14

iv
1. The Fourth Circuit and Seventh
Circuit
have
narrowed
the
associational rights of non-profit
associations.......................................... 14
2. New Hampshire, California, and
Wisconsin have correctly recognized
that the application of UPL statutes
to non-profit organizations implicates
significant
First
Amendment
interests ............................................... 15
B. Applying UPL Statutes To Non-Profit
Associations
Burdens
Access
To
Important Legal Services With No
Meaningful Benefit ..................................... 18
II. THE FOURTH CIRCUIT’S OPINION
CONFLICTS
WITH
THE
FIRST
AMENDMENT AND THIS COURT’S
PRECEDENT ................................................. 23
A. The First Amendment Protects The
Right Of Non-Profit Associations To
Offer Legal Assistance To Their
Members In Furtherance Of Their
Mission ...................................................... 23
B. The Fourth Circuit’s Decision Conflicts
With This Court’s Longstanding
Precedent ...................................................... 26
III. THE UPL STATUTES ARE AN
UNCONSTITUTIONAL
CONTENTBASED
RESTRICTION
ON
THE
ASSOCIATION’S SPEECH ......................... 31

v
A. The UPL Statutes Regulate Speech,
And Their Impact Is Substantial, Not
Incidental .................................................. 32
B. The Fourth Circuit’s Holding Permits
States To Impose Significant Speech
Restrictions Through Licensing Regimes .. 35
CONCLUSION ......................................................... 37
APPENDIX:
Published Opinion of
The United States Court of Appeals
For the Fourth Circuit
entered April 19, 2019 .............................. 1a
Memorandum Opinion and Order of
The United States District Court
For the Middle District of North Carolina
entered September 19, 2017 ................... 25a

vi
TABLE OF AUTHORITIES
Page(s)
CASES
Brotherhood of Railroad Trainmen v. Virginia,
377 U.S. 1 (1964) ......................................... passim
Board of Trustees of the State
University of New York v. Fox,
492 U.S. 469 (1989) ............................................. 28
Boy Scouts of America v. Dale,
530 U.S. 640 (2000) ............................................. 28
Citizens United v. Federal Election Commission,
558 U.S. 310 (2010) ........................................ 36-37
Cohen v. California,
403 U.S. 15 (1971) ............................................... 34
Frye v. Tenderloin Housing Clinic, Inc.,
129 P.3d 408 (Cal. 2006) ............................... 17, 18
Holder v. Humanitarian Law Project,
561 U.S. 1 (2010) ........................................... 31, 34
In re New Hampshire Disabilities
Rights Center, Inc.,
541 A.2d 208 (N.H. 1988) .................. 15, 16, 17, 20
In re Primus,
436 U.S. 412 (1978) ........................... 25, 27, 28, 31
Hopper v. City of Madison,
256 N.W.2d 139 (Wis. 1977) ................................ 18
Lassiter v. Department of Social
Services of Durham County, North Carolina,
452 U.S. 18 (1981) ............................................... 21
Lawline v. American Bar Association,
956 F.2d 1378 (7th Cir. 1992) ................... 5, 14, 15

vii
Moore-King v. County of Chesterfield,
708 F.3d 560 (4th Cir. 2013) ......................... 11, 35
National Association for the
Advancement of Colored People v. Button,
371 U.S. 415 (1963) ..................................... passim
National Institute of Family &
Life Advocates v. Becerra,
138 S. Ct. 2361 (2018) ................................. passim
Ohralik v. Ohio State Bar Association,
436 U.S. 447 (1978) ................................. 14, 26, 27
Roberts v. United States Jaycees,
468 U.S. 609 (1984) ............................................. 28
Sanitation & Recycling Industry v.
City of New York,
107 F.3d 985 (2d Cir. 1997) ................................. 28
Thomas v. Collins,
323 U.S. 516 (1945) ............................................. 27
United Mine Workers of America, District 12 v.
Illinois State Bar Association,
389 U.S. 217 (1967) ..................................... passim
United States v. O’Brien,
391 U.S. 367 (1968) ............................................. 36
United Transportation Union v.
State Bar of Michigan,
401 U.S. 576 (1971) ..................................... passim
Zauderer v. Office of Disciplinary
Counsel of Supreme Court of Ohio,
471 U.S. 626 (1985) ....................................... 33, 34

viii
CONSTITUTIONAL PROVISIONS
U.S. CONST. amend. I ........................................ passim
U.S. CONST. amend. XIV................................... passim
STATUTES
28 U.S.C. § 1254.......................................................... 1
Ark. Code Ann. § 16-22-211 ..................................... 13
Ga. Code. Ann. § 15-19-51 ........................................ 13
La. Rev. Stat. § 37:213 .............................................. 13
Mass. Gen. L. ch. 221, § 46 ....................................... 13
Mich. Comp. Laws § 450.681 .................................... 13
Mo. Rev. Stat. § 484.020 ........................................... 13
N.C. Gen. Stat. § 55B-8 ............................................ 13
N.C. Gen. Stat. § 84-2.1 .......................................... 2, 9
N.C. Gen. Stat. § 84-4 ................................................. 9
N.C. Gen. Stat. § 84-5 ....................................... passim
N.C. Gen. Stat. § 84-5.1 ...................................... 13, 36
N.C. Gen. Stat. § 84-7 ........................................ 2-3, 10
N.C. Gen. Stat. § 84-8 ..................................... 3, 4, 7, 9
N.H. Rev. Stat. § 311.11 ........................................... 13
S.D. Codified Laws § 47-13A-10 ............................... 13
OTHER AUTHORITIES
2013 N.C. State Bar Formal Ethics Op. 9 (Oct. 25,
2013), reprinted in North Carolina State Bar, The
2014 Lawyer’s Handbook 10-249 (2014) .................. 30

ix
Barlow F. Christensen, The Unauthorized
Practice of Law: Do Fences Really Make Good
Neighbors—or Even Good Sense?, 159 Am. B.
Found. Res. J. 159 (1980) ........................................... 9
Benjamin Cooper, Access to Justice Without
Lawyers, 47 Akron L. Rev. 205 (2014) ..................... 19
Clifford Winston & Quentin Karpilow, Should the
U.S. Eliminate Barriers to the Practice of Law?
Perspectives Shaped by Industry Deregulation,
American Economic Review: Papers and
Proceedings (2016) ............................................... 19-20
Grace M. Giesel, Corporations Practicing Law
Through Lawyers: Why the Unauthorized Practice
of Law Doctrine Should Not Apply, 65 Mo. L. Rev.
151 (2000) .................................................................... 9
N.C. Comm’n on Admin. of L. and Justice, Final
Report: Recommendations for Strengthening the
Unified Court System of North Carolina (March
2017) .......................................................................... 19
Neil Gorsuch, Access to Affordable Justice,
100 Judicature 46 (2016) ................................ 5, 19, 20
Richard Abel, American Lawyers (1989) ................... 9

PETITION FOR WRIT OF CERTIORARI
Capital Associated Industries, Inc. respectfully
petitions for a writ of certiorari to review the
judgment of the Fourth Circuit in this case.
OPINIONS BELOW
The Fourth Circuit’s opinion (App. 1a-24a) is
reported at 922 F.3d 198. The District Court’s opinion
(App. 25a-57a) is reported at 283 F. Supp. 3d 374.
JURISDICTION
The Fourth Circuit entered judgment on April 19,
2019. On June 19, 2019, Chief Justice Roberts
extended the time to file a petition for a writ of
certiorari to and including August 30, 2019. No.
18A1321. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL PROVISIONS INVOLVED
The First Amendment, U.S. Const. amend. I,
provides:
Congress shall make no law respecting
an establishment of religion, or
prohibiting the free exercise thereof; or
abridging the freedom of speech, or of
the press; or the right of the people
peaceably to assemble, and to petition
the Government for a redress of
grievances.
The Fourteenth Amendment, U.S. Const. amend.
XIV, provides:
All persons born or naturalized in the
United States and subject to the

2
jurisdiction thereof, are citizens of the
United States and of the State wherein
they reside. No State shall make or
enforce any law which shall abridge the
privilege or immunities of citizens of the
United States; nor shall any State
deprive any person of life, liberty, or
property, without due process of law; nor
deny to any person within its
jurisdiction the equal protection of the
laws.
STATUTORY PROVISIONS INVOLVED
Section 84-2.1(a) of the North Carolina General
statutes provides, in pertinent part:
The phrase “practice law” … is defined
to be performing any legal service for
any other person, firm or corporation,
with or without compensation[.]
Section 84-5(a) of the North Carolina General
Statutes provides, in pertinent part:
It shall be unlawful for any corporation
to practice law[.]
Section 84-7 of the North Carolina General
Statutes provides:
The district attorney of any of the
superior courts shall, upon the
application of any member of the Bar, or
of any bar association, of the State of
North Carolina, bring such action in the
name of the State as may be proper to
enjoin any such person, corporation, or
association of persons who it is alleged

3
are violating the provisions of G.S. 84-4
to 84-8, and it shall be the duty of the
district attorneys of this State to indict
any person, corporation, or association of
persons upon the receipt of information
of the violation of the provisions of G.S.
84-4 to 84-8.
Section 84-8(a) of the North Carolina General
Statutes provides:
Any person, corporation, or association
of persons violating any of the provisions
of G.S. 84-4 through G.S. 84-6 … shall be
guilty of a Class 1 misdemeanor.
INTRODUCTION
Petitioner Capital Associated Industries, Inc. (the
“Association”) is a non-profit association of more than
1,100 North Carolina employers that exists to help its
members address common management and
employment issues. The Association advances its
mission of helping employer-employee relations by
sharing best management practices, educating
members about labor and employment regulations,
and advocating on public policy issues. Many of the
Association’s members are too small to employ inhouse counsel or human-resources professionals to
help them navigate the web of existing federal, state,
and local labor-and-employment laws. To assist its
members, the Association offers access to a team of
human-resources professionals—which includes
licensed attorneys—that answers questions about
human-resources issues.
Each year, however, the Association’s attorneys
must decline to answer hundreds of questions from

4
Association members. North Carolina’s unauthorized
practice of law statutes (“UPL statutes”) prohibit
them from doing so if the answer constitutes legal
advice. In that case, answering is a criminal offense.
N.C. Gen. Stat. §§ 84-5(a), 84-8(a).
The UPL statutes plainly abridge the Association’s
First Amendment right to freedom of association. In
United Mine Workers of America, District 12 v. Illinois
State Bar Association, the Court recognized “the right
of an association to provide legal services for its
members.” 389 U.S. 217, 222 (1967). The Court held
that a labor union had “the right to hire attorneys on
a salary basis to assist its members in the assertion
of their legal rights.” Id. at 221-222. This decision
does not stand alone. In three other cases decided
decades ago, the Court held that UPL statutes cannot
be used to prohibit non-profit associations from
offering legal assistance to members. NAACP v.
Button, 371 U.S. 415, 428-429 (1963); Bhd. of R.R.
Trainmen v. Virginia, 377 U.S. 1, 5 (1964); United
Transp. Union v. State Bar of Mich., 401 U.S. 576, 580
(1971).
The Association brought this case to vindicate the
same rights recognized in Mine Workers and this
Court’s other cases. Describing the question as
“admittedly close,” App. 11a, the Fourth Circuit
nonetheless held that, as applied to the Association,
“North Carolina’s UPL statutes only marginally
affect[] … First Amendment concerns,” App. 13a
(internal quotation marks omitted). The Fourth
Circuit characterized the Association—a non-profit
organization governed by its members that seeks to
provide legal advice in furtherance of its mission—as
too “commercial” to have the same First Amendment

5
rights as labor unions and other non-profit
associations. App. 11a. Indeed, the court held that it
“need not examine whether the state’s interests
suffice to justify” the UPL statutes’ restrictions on the
Association. App 13a.
In so holding, the Fourth Circuit joined the
Seventh Circuit in adopting an unduly narrow view of
the First Amendment protections afforded to nonprofit associations that seek to provide legal help to
their members. See Lawline v. Am. Bar Ass’n, 956
F.2d 1378, 1386-1387 (7th Cir. 1992). Those courts
stand in contrast to the New Hampshire, California,
and Wisconsin Supreme Courts, which have correctly
recognized that UPL statutes impose substantial
burdens on associational rights.
This case presents an ideal vehicle for the Court to
address the split in authority that has developed over
the past 40 years in an area that has important,
nationwide consequences for access to cost-effective
legal services. As Justice Gorsuch has recognized, “a
more nuanced approach” to lawyer regulation could
“preserve (or even enhance) quality while
simultaneously increasing access to competent and
affordable legal services.” Neil Gorsuch, Access to
Affordable Justice, 100 Judicature 46, 49 (2016).
North Carolina’s UPL statutes also abridge the
Association’s freedom of speech. The Association is
only free to speak with its members if its speech does
not constitute legal advice. The Court made clear in
National Institute of Family & Life Advocates v.
Becerra, 138 S. Ct. 2361 (2018) (“NIFLA”), that
restrictions on “professional speech” are generally
subject to strict scrutiny.
The Fourth Circuit,
however, applied less scrutiny to the UPL statutes

6
because the court described them as part of a
licensing regime that regulates conduct with only an
incidental impact on speech.
The practical effect of the Fourth Circuit’s holding
is that a state may restrict the speech of disfavored
speakers through professional licensing regimes. The
Court specifically warned against this very danger in
NIFLA, explaining that subjecting so-called
“professional speech” to a lower First Amendment
standard would “give[] the States unfettered power to
reduce a group’s First Amendment rights by simply
imposing a licensing requirement.” 138 S. Ct. at 2375.
Lawyers are not the only group affected. As the Court
recognized in NIFLA, licensing regimes impact “a
wide array of individuals—doctors, lawyers, nurses,
physical therapists, truck drivers, bartenders,
barbers, and … even … fortune tellers.” Id. The
Court should not permit the Fourth Circuit to render
NIFLA toothless just months after it was decided.
STATEMENT
A. Capital Associated Industries
In the 1960s, roughly two dozen employers in the
Raleigh-Durham area of North Carolina gathered
together to find solutions to common management
and employment issues. C.A.J.A. 161, 470. These
employers
soon
established
the
non-profit
Association. C.A.J.A. 161-162. The Association now
includes more than 1,100 North Carolina employers,
including for-profit businesses, non-profits, and
governmental organizations. C.A.J.A. 162, 249-252.
Most members have fewer than 100 employees.
C.A.J.A. 164.

7
Fifty years later, the Association remains a nonprofit that is self-governed by its members that
reinvests all of its membership dues into its mission
of promoting healthy employer-employee relations.
App. 4a; C.A.J.A. 161-163. The Association serves its
members by advocating on public policy issues that
affect employers, sharing best practices on common
management and human-resources issues, and
assisting members in navigating the web of laborand-employment rules that impact their operations.
C.A.J.A. 161-162, 165.
Many Association members are too small to
employ in-house legal counsel or human-resources
professionals. C.A.J.A. 164. The Association serves
members, and furthers its mission, by offering them
unlimited access to an Advice & Resolution Team (the
“A&R Team”), which is staffed by experienced
human-resources professionals. App. 4a; C.A.J.A 164,
166. The A&R Team receives 7,000 to 9,000 inquiries
a year. Id.
However, the Association’s members can receive
answers to only some of their compliance questions.
Though the Association employs North Carolina
licensed attorneys, North Carolina’s UPL statutes
forbid the Association’s attorneys from offering legal
advice to members. App. 4a; C.A.J.A. 170-171. In
fact, it is a crime. N.C. Gen. Stat. §§ 84-5, 84-8(a).
When an Association attorney determines that the
answer to a question may constitute legal advice, the
attorney tells the member that the Association cannot
answer the question and advises the member to hang
up and call a law firm. App. 4a; C.A.J.A. 170-171, 556.
The Association is forced to censor itself in this way
hundreds of times each year. C.A.J.A. 171.

8
Frustrated Association members often find
outside law firms too expensive or slow. C.A.J.A. 172173, 527-528. Rather than obtaining sound advice
from a licensed attorney, members resort to self-help
solutions like “spend[ing] a lot of time online looking
up stuff,” conducting Google searches, asking other
employers what they might do, or “wing[ing] it.”
C.A.J.A. 468-469, 554-555, 603-604.
The Association and its members want the
Association’s licensed attorneys to answer members’
routine legal questions about labor-and-employment
issues as part of their annual dues. C.A.J.A. 170, 172174, 537, 556-557, 620-621, 647-648. This would
include counseling members on how to comply with
laws and regulations that govern specific employee
situations, such as the application of unemployment
laws, workers’ compensation rules, the Family and
Medical Leave Act, and Title VII. C.A.J.A. 166. For
members needing more time-intensive help—for
example, drafting employment and separation
agreements or reviewing employee policies and
handbooks—the Association would collect a
surcharge to be fair to other members. C.A.J.A. 172174, 309-310. The Association does not intend to help
members with litigation, or specialized topics like the
Employee Retirement Income Security Act, National
Labor Relations Board matters, immigration law, or
tax law. C.A.J.A. 170, 417.
The Association has proposed specific, additional
safeguards, beyond the ethical rules imposed upon all
licensed attorneys, to protect its attorneys’
professional independence. These safeguards include
paying attorneys on a salary basis, vesting them with
full control over legal services, and training nonattorney staff to honor the attorney’s ethical

9
responsibilities. C.A.J.A. 174, 359-360.
The
Association would remain a non-profit, self-governed
by its members, that continues to reinvest its
revenues in furtherance of its mission. C.A.J.A. 161163
B. North Carolina Law
North Carolina enacted its UPL statutes in 1931,
at a time when the organized bars in many
jurisdictions worked to enact legislation protecting
lawyers. App. 3a; Richard Abel, American Lawyers
116, 118-119, 124, 159 (1989); see also Barlow F.
Christensen, The Unauthorized Practice of Law: Do
Fences Really Make Good Neighbors—or Even Good
Sense?, 159 Am. B. Found. Res. J. 159, 191-192 (1980);
Grace M. Giesel, Corporations Practicing Law
Through Lawyers: Why the Unauthorized Practice of
Law Doctrine Should Not Apply, 65 Mo. L. Rev. 151,
162 (2000).
State bars were concerned about
competition from “the growth of a creature of the
lawyer’s own creation, the modern business
corporation.” Christensen, 159 Am. B. Found. Res. J.
at 178.
North Carolina’s UPL statutes make it “unlawful
for any corporation to practice law.” N.C. Gen. Stat.
§ 84-5(a). The practice of law includes providing any
“legal advice or counsel” to a third party, including
“advis[ing] … upon the legal rights of any person, firm
or corporation.” Id. §§ 84-2.1, 84-4. The breadth of
“legal advice” is so vast that, according to the North
Carolina State Bar, it could include advising a driver
of the speed limit. C.A.J.A. 670-673. Unauthorized
corporate practice is a Class 1 misdemeanor. N.C.
Gen. Stat. § 84-8(a). State prosecutors are obligated
to bring criminal charges against the corporation

10
upon receiving information of a violation. See App.
3a-4a; N.C. Gen. Stat. § 84-7.
In 2013, the Association requested permission
from the North Carolina State Bar to provide its
members the legal assistance they desired. The
Association explained that it wanted to guide
members
responding
to
unemployment
or
discrimination complaints, instruct members on
changes to employment rules and regulations, review
employee handbooks and affirmative action plans,
and advise members on applying state and federal
workplace laws to live situations. C.A.J.A. 10431044. The State Bar responded that the Association
could not offer any “legal advice to a member of the
association about the member’s specific legal
problem” because it “would be the unauthorized
practice of law.” Id.
C. District Court Proceedings
The Association filed suit in the United States
District Court for the Middle District of North
Carolina against the North Carolina Attorney
General and the two district attorneys who would be
responsible for prosecuting the Association for a
violation of the UPL statutes. C.A.J.A. 16-38. The
Association sought a declaration that North
Carolina’s UPL statutes, as applied to the
Association, violate the First Amendment.1 The
North Carolina State Bar intervened to defend the
UPL statutes. App. 26a.
The Association contended that the First
Amendment right to freedom of association endowed
1

here.

The Association made other legal challenges not at issue

11
it with the right to provide legal assistance to its
members. App. 46a. The Association also argued that
the UPL statutes are a content-based restriction on
the Association’s speech that cannot survive strict
scrutiny. App. 42a.
The District Court granted summary judgment to
the defendants.
App. 57a.
The district court
concluded that the Association’s associational rights
claim failed because the Association’s “proposed
provision of legal services would not further the
exercise of any protected First Amendment activity.”
App. 49a.
The district court also denied the
Association’s free-speech claim, reasoning that the
UPL statutes are a professional regulation “that is not
subject to First Amendment scrutiny on freedom of
speech grounds.” App. 44a.2
D. Appellate Court Proceedings
The United States Court of Appeals for the Fourth
Circuit affirmed, conceding that the associational
rights claim was “admittedly close.” App. 11a.3
The panel held that the UPL statutes “do not
substantially impair[] the associational rights of [the
Association].” App. 13a (internal quotation marks
omitted). Though the Association is a self-governed
The district court relied on then-binding Fourth Circuit
precedent, which provided that state regulation of “professional
speech” should receive lessened First Amendment scrutiny.
App. 43a (citing Moore-King v. County of Chesterfield, 708 F.3d
560 (4th Cir. 2013)). As discussed below, this Court has since
disapproved of that Fourth Circuit precedent. NIFLA, 138 S. Ct.
at 2371-2372.
2

3 The Fourth Circuit held that the Association had standing
because it faced a credible threat of prosecution. App. 7a n2.

12
non-profit that seeks to offer legal assistance to its
members in furtherance of its mission, the court stated
that the Association’s proposed activities “would be
for commercial ends.” App. 11a. Because the panel
determined that the application of the UPL statutes
to the Association “only marginally affect[s] ... First
Amendment concerns,” the court determined that it
“need not examine whether the state’s interests
suffice to justify them.” App. 13a. (internal quotation
marks omitted).
Turning to the free-speech claim, the panel
recognized that this Court had rejected the Fourth
Circuit’s so-called “professional-speech doctrine” in
NIFLA, which held that content-based restrictions on
professional speech should be subject to strict
scrutiny.
App. 13a-14a.
However, the panel
determined that “North Carolina’s ban on the practice
of law by corporations fits within NIFLA’s exception
for professional regulations that incidentally affect
speech.” Id. The panel reasoned that “any impact the
UPL statutes have on speech is incidental to the
overarching purpose of regulating who may practice
law.” App 15a.
The panel then applied intermediate scrutiny and
held that the UPL statutes survived because
“[p]rofessional integrity could suffer if the state
allows lawyers to practice on behalf of organizations
owned and run by nonlawyers” and because
“[n]onlawyers would likely supervise lawyers
representing third-party clients …, which could
compromise professional judgment and generate
conflicts.” App. 18a.

13
REASONS FOR GRANTING THE PETITION
I. THE FIRST QUESTION PRESENTED IS
EXCEPTIONALLY IMPORTANT
North Carolina is one of many states that has
enacted broad statutes that prevent corporate
entities—including non-profits and voluntary
associations—from employing licensed attorneys to
provide legal advice to third parties. The Fourth
Circuit correctly recognized that “[a]lmost all other
states have similar laws on the books” that forbid
“corporations from practicing law.” App. 3a n.1; see,
e.g., Ark. Code Ann. § 16-22-211; Ga. Code. Ann. § 1519-51(b); La. Rev. Stat. § 37:213(A)(1); Mass. Gen. L.
ch. 221, § 46; Mich. Comp. Laws § 450.681; Mo. Rev.
Stat. § 484.020; N.H. Rev. Stat. § 311.11; S.D.
Codified Laws § 47-13A-10.4
In the 1960s and early 1970s, this Court
recognized that state UPL laws may abridge the First
Amendment right to association when applied to nonprofit associations like the NAACP and labor unions.
See Button, 371 U.S. at 428-429; Trainmen, 377 U.S.
at 5; Mine Workers, 389 U.S. at 222; United Transp.
Union, 401 U.S. at 580 (collectively “Button and the
Union Cases”). But the Court has not returned to the
subject for more than forty years. In that time, a split
of authority has developed in the lower courts,
rendering the First Amendment rights of non-profit
organizations inconsistent and, in many cases,
unduly narrow.
North Carolina and other states generally permit the
practice of law by (1) corporations owned entirely by lawyers (i.e.,
law firms), (2) certain legal services corporations (i.e., public
interest law firms), and (3) in-house counsel representing their
employers. App. 4a; see N.C. Gen. Stat. §§ 55B-8, 84-5(a), 84-5.1.
4

14
A. The First Amendment Right To Association
Varies By Jurisdiction
1. The Fourth Circuit and Seventh Circuit
have narrowed the associational rights
of non-profit associations
The Fourth Circuit below adopted a very narrow
view of the Association’s First Amendment rights,
concluding that, as applied to the Association, the UPL
statutes “‘only marginally affect … First Amendment
concerns.’” App. 13a (quoting Ohralik v. Ohio State
Bar Association, 436 U.S. 447, 459 (1978)). The
Fourth Circuit joined the Seventh Circuit in its
hostility to associative rights. The Seventh Circuit
previously held that UPL regulations could prohibit
an unincorporated association from providing free
legal advice to callers because the statutes did not put
a “fundamental right … at issue.” Lawline, 956 F.2d
at 1387. The Seventh Circuit concluded that the right
of laypersons to associate with lawyers recognized by
this Court in Mine Workers only applied when
“necessary … in order to realize their right to free
speech, petition and assembly.” Id. As with the
Fourth Circuit, the Seventh Circuit held that First
Amendment protections are only triggered when
association lawyers are needed “to obtain meaningful
access to the courts.” Id.; App. 12a.
Because the Fourth and Seventh Circuits do not
recognize the significant burdens that UPL statutes
impose on the rights of non-profit associations, they
apply little, if any, scrutiny to the justifications for
restricting non-profit associations from providing
legal assistance.

15
In fact, the Fourth Circuit was clear that it would
apply no scrutiny whatsoever. Having concluded that
North Carolina’s UPL statutes “do not ‘substantially
impair[] … associational rights,’” App. 13a (quoting
Mine Workers, 389 U.S. at 225), the court determined
that it “need not examine whether the state’s
interests suffice to justify” the restrictions imposed by
the UPL statutes. Id. The Fourth Circuit expressly
relied on the Seventh Circuit’s Lawline decision,
which it described as “declining to apply heightened
scrutiny because there was no deprivation of
associational rights.” Id. (citing Lawline, 956 F.2d at
1387). Indeed, the Lawline panel explained that an
association’s ability to offer legal services was a
subject of State discretion. See 956 F.2d at 1387.
Thus, in the Fourth and Seventh Circuits, the
States may forbid the practice of law by non-profit
associations with little, if any, justification.
2. New Hampshire, California, and
Wisconsin have correctly recognized
that the application of UPL statutes to
non-profit organizations implicates
significant First Amendment interests
At least three state appellate courts of last resort
understand this Court’s First Amendment teachings
differently—and correctly. Had the Association’s
appeal been heard in one of those states, the result
would have been different.
In 1988, Justice David Souter, then serving on the
New Hampshire Supreme Court, wrote an opinion
that addressed a non-profit’s right to practice law
despite New Hampshire’s UPL statutes. See In re
N.H. Disabilities Rights Ctr., Inc., 541 A.2d 208 (N.H.
1988). At the time, New Hampshire law limited

16
corporate practice of law to serving “the poor,” and the
Disability Rights Center sought to expand its practice
to include others. Id. at 209.
The New Hampshire Supreme Court recognized
that the Center’s “claim under the first and
fourteenth amendments [was] substantial” in light of
this Court’s decisions in Button and the Union Cases.
Id. at 212. The opinion aptly described the import of
those cases:
Organizations, their members and their
staff lawyers may assert a protected first
amendment right of associating for noncommercial purposes to advocate the
enforcement of legal and constitutional
rights of those members …. When such
advocacy may reasonably include the
provision of legal advice …, the
organization may itself provide legal
representation to its members … despite
State regulations restricting legal
practice and the solicitation of clients,
provided that the organization and its
lawyers do not engage in the specific
evils that the general State regulations
are intended to prevent.
Id. at 213.
The New Hampshire Supreme Court rejected the
State’s contention that First Amendment concerns
were limited to rectifying a lack of access to the
courts. Justice Souter recognized that the labor
unions in Trainmen and Mine Workers “were not
responding to any unavailability of counsel,” rather
they were responding “to the inadequacies of the
representation that was at hand” and seeking to

17
improve the legal services available to their members.
Id. at 214. This reasoning contrasts starkly with the
Fourth Circuit, which distinguished this Court’s
decisions because the Association’s activities “would
not facilitate access to the courts.” App. 11a.
The New Hampshire Supreme Court also differed
from the Fourth Circuit and Seventh Circuit because
it applied heightened scrutiny to New Hampshire’s
UPL statutes, explaining that “[t]he threat of evil
must … be concrete and immediate before it can
justify enforcement of State restrictions that impinge
on first amendment interests.” Disabilities Rights
Ctr., 541 A.2d at 215. The New Hampshire court
rejected the State’s speculative justifications for the
UPL statutes, noting that “the Court in Mine Workers
held that the general possibility of conflicting
interests between the association and the individual
client is too speculative to support enforcement.” Id.
In contrast, the Fourth Circuit concluded that the
mere possibility that the Association’s legal practice
“could” compromise independence or “could” cause a
breach of loyalty was sufficient to determine that the
UPL statutes implicated no First Amendment rights
whatsoever. App. 12a.
The California Supreme Court has also recognized
the important associational rights of non-profit
organizations. Frye v. Tenderloin Housing Clinic,
Inc., 129 P.3d 408 (Cal. 2006). The California court
explained that “[t]he broad import of [this Court’s]
cases is to ‘uphold[] the First Amendment principle
that groups can unite to assert their legal rights as
effectively and economically as practicable.’” Id. at
418 (quoting United Transp. Union, 401 U.S. at 580).
Indeed, the California court quoted at length Justice

18
Souter’s explanation of this Court’s decisions in
Button and the Union Cases. Id. at 419.
The New Hampshire and California courts are not
alone. A decade earlier, the Supreme Court of
Wisconsin recognized that UPL statutes could not
prevent a non-profit association from providing legal
information to constituents. The Wisconsin court
held that it “would infringe upon First Amendment
rights recognized by [this] Court” in United
Transportation Union, Mine Workers, and Trainmen.
Hopper v. Cty. of Madison, 256 N.W.2d 139, 145 (Wis.
1977). The Wisconsin court correctly understood the
Court’s precedent to “uphold the principle that the
First Amendment guarantees of free speech, petition
and assembly protect the right of persons to unite to
assert their legal rights as effectively and
economically as possible.” Id.
The split in authority between the Fourth and
Seventh Circuits and the Supreme Courts of New
Hampshire, California, and Wisconsin is intractable.
The state decisions and the Seventh Circuit decision
are longstanding and will not be reconsidered absent
intervention by this Court. Moreover, the split will
only deepen as more courts address this issue.
Accordingly, this case, which cleanly and clearly
presents the issue, is an ideal vehicle for the Court to
clarify the law in this important area.
B. Applying UPL Statutes To Non-Profit
Associations Burdens Access To Important
Legal Services With No Meaningful Benefit
Legal commentators have recognized that the lack
of access to affordable, useful legal representation is
a serious problem in the United States. As Justice
Gorsuch put it, “[m]ost everyone agrees that in the

19
American civil justice system many important legal
rights go unvindicated, serious losses remain
uncompensated, and those called on to defend their
conduct are often forced to spend altogether too much.”
Gorsuch, Access to Affordable Justice, 100 Judicature
at 47. The reality is that “[l]egal services in this
country are so expensive that the United States ranks
near the bottom of developed nations when it comes to
access to counsel in civil cases.” Id.; see also Benjamin
Cooper, Access to Justice Without Lawyers, 47 Akron
L. Rev. 205, 205 (2014) (noting that the United States
ranked “twentieth out of the twenty-three countries
… in its income group” on “access to civil justice”).
While commentators often focus on legal services
for low-income individuals, small businesses, which
make up a substantial portion of the Association’s
membership, face similar problems. Indeed, the
North Carolina Commission on the Administration of
Law & Justice recently reported that “[s]mall- and
medium-sized businesses … find it increasingly
unaffordable to hire lawyers to address the legal
issues that inevitably arise in modern business.” N.C.
Comm’n on Admin. of L. & Justice, Final Report:
Recommendations for Strengthening the Unified
Court System of North Carolina 49 (March 2017). The
result is that “many parties try to represent
themselves” and resort to inadequate self-help
remedies. Id.; see also supra p. 8.
It is also widely understood that “entry barriers in
legal services,” such as UPL statutes, “have created
inefficiencies” and prevent important innovation that
would make the delivery of legal services more
efficient and democratic. Clifford Winston & Quentin
Karpilow, Should the U.S. Eliminate Barriers to the
Practice of Law? Perspectives Shaped by Industry

20
Deregulation, American Economic Review: Papers
and Proceedings, 1 (2016). As Justice Gorsuch
observed, one might “wonder if a profession entrusted
with the privilege of self-regulation is at least as (or
maybe more) susceptible than other lines of commerce
to regulations that impose too many social costs
compared to their attendant benefits.” Gorsuch,
Access to Affordable Justice, 100 Judicature at 48.
Here, the Association and its members have
proposed a common-sense plan to provide members
high-quality legal advice “as effectively and
economically as practicable.” United Transp. Union,
401 U.S. at 580. The Association’s members face
similar legal questions that are likely to arise
infrequently for individual members. But the issues
arise frequently within the group. In short time, the
Association’s attorneys will know the recurring issues
facing the membership and the relevant law—making
them uniquely situated to provide sound advice
quickly and affordably.5
Justice Souter recognized this benefit in
Disabilities Rights Center, where it was undisputed
that the Center’s “lawyers are more conversant in the
relevant law than are most lawyers practicing
privately.” 541 A.2d at 214. He concluded that this
was reason to believe that the Center’s expanded legal
practice “will probably result in better representation
... and more effective service to all … whose interests
the [Center] is organized to advance.” Id.
In addition, the Association’s attorneys, because of their
recurring contacts with members, often will be familiar with the
factual background giving rise to the legal issues. The record
reflects that legal questions often arise after the Association has
already been working with a member on an employee issue.
C.A.J.A. 614, 617-618.
5

21
The benefit to the Association’s members would be
substantial.
Members come to the Association
seeking the information necessary to comply with
labor and employment law. C.A.J.A. 253. Rather
than resorting to self-help and “wing[ing] it,”
members want the Association to offer them timely
legal advice from knowledgeable attorneys. C.A.J.A.
172, 554-555, 603-604. Such advice would help
members operate more efficiently, avoid costly
problems, and protect their employees. Indeed,
employees will benefit when their employers have
access to good legal advice. Employers of all types and
sizes will be better informed about their legal rights
and obligations, promoting “the predictability and
uniformity that underlie our society’s commitment to
the rule of law.” Lassiter v. Dep’t of Soc. Servs. of
Durham Cnty., N.C., 452 U.S. 18, 50 (1981)
(Blackmun, J., dissenting). The model of accessible
specialized knowledge proposed by the Association
could also be replicated by other non-profit
associations in North Carolina and other states.
In contrast to the clear benefits of the Association’s
plan, the State offers only “theoretical possibilit[ies]”
of harm to justify the severe imposition on
associational rights. Mine Workers, 389 U.S. at 223;
see App. 12a. The Court specifically rejected the
“theoretically imaginable divergence between the
interests of union and member” in Mine Workers,
recognizing that it had also rejected such a contention
in Button. 389 U.S. at 224; see Button, 371 U.S. at
441-443; see also Disabilities Rights Ctr., 541 A.2d at
215 (“[T]he general possibility of conflicting interests
between the association and the individual client is
too speculative to support enforcement of an
otherwise valid State regulation, when enforcement

22
would compromise a demonstrated first amendment
interest.”).
There is no evidence of any actual conflict arising
in the voluntary offer of legal assistance by a nonprofit association to its members. See Mine Workers,
389 U.S. at 224 (noting that “the Illinois Supreme
Court itself described the possibility of conflicting
interests as, at most, ‘conceivabl[e]’”). Indeed, three
peer employer associations operate in other states
and provide the type of legal assistance that the
Association seeks to provide in North Carolina.
C.A.J.A. 182-185, 198-200, 214-217. Uncontroverted
record evidence establishes that these associations,
collectively, have offered legal services for over a
century without a single attorney being disciplined
for ethical issues. C.A.J.A. 182-183, 186-187, 202,
218.
Here, the North Carolina State Bar conceded that
any conflicts are speculative and, even if they arise,
attorneys are trained to handle them. See C.A.J.A.
745-746, 751-752. The Association seeks only to
assist its members with relatively routine legal
questions, which are unlikely to raise substantial
ethical concerns. See supra p. 8-9. The Association
has proposed numerous safeguards to limit the
potential for any conflicts. Id. In addition, legal
advice would only be provided by licensed attorneys
who are already bound by professional ethical
standards. C.A.J.A. 174, 348-349. The State Bar has
ample means to police any conflicts of interest and
any other problems through its existing disciplinary
powers over the Association’s attorneys. See C.A.J.A.
696, 708-709, 762-764, 822.

23
The Association is governed by its members and is
seeking only to offer legal advice to members who
want it. See supra p. 7-9. No member would be bound
to use the Association’s attorneys for legal advice.
Every member would be free to rely on any counsel—
or none at all—when legal questions arise. The
Association and its members simply believe that their
plan provides a needed service that furthers the
Association’s mission.
II. THE
FOURTH
CIRCUIT’S
OPINION
CONFLICTS WITH THE FIRST AMENDMENT
AND THIS COURT’S PRECEDENT
The Fourth Circuit “admitted[]” that the
Association’s associational rights claim was “close.”
App. 11a. The panel’s candor is indicative of its
struggle to explain why the Association—a voluntary,
non-profit association of employers—was not entitled
to the same First Amendment protections that this
Court repeatedly recognized for associations of
employees and other non-profit organizations. The
much simpler—and correct—understanding of the
First Amendment is that it affords the Association the
right “to act collectively to obtain affordable and
effective legal representation.”
United Transp.
Union, 401 U.S. at 584.
A. The First Amendment Protects The Right
Of Non-Profit Associations To Offer
Legal Assistance To Their Members In
Furtherance Of Their Mission
The Court recognized the associational rights of
non-profit organizations to provide legal services to
their members in furtherance of their collective

24
mission in a series of cases decide in the 1960s and
1970s.
In Button, the Court recognized that Virginia’s
UPL statutes could not be used to restrict the
NAACP’s right to solicit and represent members. 371
U.S. at 419-422. The Court held that the Virginia
UPL statutes “violate[] the Fourteenth Amendment
by unduly inhibiting protected freedoms of expression
and association.” Id. at 437. The Court explained
that “a State may not, under the guise of prohibiting
professional misconduct, ignore constitutional
rights.” Id. at 439. The Court recognized that “the
Constitution protects expression and association
without regard … to the truth, popularity, or social
utility of the ideas and beliefs which are offered.” Id.
at 444-445.
Soon after Button, the Court in Trainmen upheld
against Virginia’s UPL statutes the right of a labor
union to recommend pre-approved attorneys to
members injured on the job. Trainmen, 377 U.S. at 1.
The Court explained that “[i]t cannot be seriously
doubted that the First Amendment’s guarantees …
give railroad workers the right to gather together for
the lawful purpose of helping and advising one
another in asserting … statutory rights which would
be vain and futile if the workers could not talk
together freely as to the best course to follow.” Id. at
5-6.
Then, in Mine Workers, the Court held that the
Illinois UPL statutes could not be used to prohibit a
union from employing a salaried attorney to represent
members in workers’ compensation cases. 389 U.S. at
217. The Court recognized the general “right of an
association to provide legal services for its members.”

25
Id. at 222. In doing so, the Court explained that “the
First Amendment does not protect speech and
assembly only to the extent it can be characterized as
political.” Id. at 223. The Court elaborated that
“[g]reat secular causes, [along] with small ones, are
guarded” under the First Amendment, and its
protections “are not confined to any field of human
interest.” Id. (internal quotations omitted). The
Court dismissed “theoretical” concerns about the
union interfering with the lawyer’s duty to represent
members. Id. The Court specifically held that the
First and Fourteenth Amendments gave the union
“the right to hire attorneys on a salary basis to assist
its members in the assertion of their legal rights.” Id.
at 221-222.
In United Transportation Union, the Court then
held that a union’s practice of recommending preapproved attorneys with union-dictated legal rates
was protected by the First Amendment. 401 U.S. at
577. The union’s practice helped members avoid
excessive legal fees, and the Court held that the
union’s members had the right “to act collectively to
obtain affordable and effective legal representation.”
Id. at 584-585.
Finally, in In re Primus the Court held that a state
bar could not prohibit a lawyer associated with the
ACLU from advising a potential litigant that the
ACLU could offer the litigant free legal assistance.
436 U.S. 412, 414 (1978). The Court summarized
Button and the Union Cases as recognizing a First
Amendment right to engage in “collective activity”
that includes “provid[ing] low-cost, effective legal
representation.” Primus, 436 U.S. at 426.

26
B. The Fourth Circuit’s Decision Conflicts
With This Court’s Longstanding Precedent
The Association is a self-governed non-profit that
seeks to provide legal advice to its members in
furtherance of its mission. But the Fourth Circuit
held that the UPL statutes “do not substantially
impair the associational rights of CAI” and “only
marginally affect[] … First Amendment concerns.”
App. 13a (internal quotation marks omitted). As a
result, the court held that it need not apply any
scrutiny to the UPL statutes. Id.
To reach its holding, the court concluded that the
case was not governed by Button and the Union
Cases, and instead held that the case was closer to
this Court’s decision in Ohralik v. Ohio State Bar
Association, 436 U.S. 447 (1978). App. 11a. In
Ohralik, the Court rejected a free speech challenge to
an Ohio restriction on lawyer solicitation of clients,
reasoning that the First Amendment could yield to a
state’s interest in imposing limits on a proposed
commercial transaction. 436 U.S. at 455-457, 468.
The Court only touched on associational rights in a
single paragraph that begins by noting that
associational rights were not at issue in the case.
Id. at 458. The Court was careful to distinguish a
private attorney’s “solicitation” of clients for profit,
which could be regulated, from the “mutual
assistance in asserting legal rights that was at issue
in United Transportation …, Mine Workers …, and
Railroad Trainmen.” Id. at 458-459.
Just like the labor unions at issue in those cases,
the Association is a non-profit that seeks to provide
mutual assistance to its members in furtherance of
the Association’s goals. Nonetheless, the Fourth

27
Circuit concluded that, as applied to the Association,
“North Carolina’s UPL laws are closer to the
[solicitation] statute in Ohralik than the [UPL]
statutes in [Button and the Union Cases].” App. 11a.
In so holding, the Fourth Circuit accepted arguments
that this Court has already rejected, and reached a
result that impermissibly burdens First Amendment
rights.
For example, the Fourth Circuit reasoned that
First Amendment rights were not implicated because
the Association sought “to accomplish … commercial
ends” and to “address only private concerns.” App.
11a. The court distinguished Button and Primus as
protecting groups that were “expanding and guarding
[members’] civil rights,” whereas the Association
merely “want[s] to help its members ‘resolv[e] private
differences.’” App. 11a (quoting Button, 371 U.S. at
429).
The Fourth Circuit misread those cases and
ignored the Union Cases, each of which involved the
resolution of private disputes. For example, in Mine
Workers the Court held that the First Amendment
protected a union’s efforts to secure effective
representation in workers’ compensation cases—legal
work that was “not bound up with political matters of
acute social moment.” 389 U.S. at 223. United
Transportation Union likewise concerned union
members’ effort “to protect themselves from excessive
fees at the hands of incompetent attorneys in suits for
damages under the Federal Employers’ Liability Act.”
401 U.S. at 577. As the Court explained in Mine
Workers, under the First Amendment “‘[g]reat secular
causes, with small ones, are guarded.’” 389 U.S. at
223 (quoting Thomas v. Collins, 323 U.S. 516, 531
(1945)). After these decisions, there can be no

28
meaningful doubt that the First Amendment protects
the right of associations “to act collectively to obtain
affordable and effective legal representation” to
resolve private disputes. United Transp. Union, 401
U.S. at 584.
The panel equated the Association to a “private
attorney” practicing law for “commercial ends”
because its provision of legal assistance to members
could increase membership and revenues. App. 11a.
The court determined that this was a reason to deny
the Association First Amendment protection. Id.
However, the Court in Primus rejected the
“suggestion that the level of constitutional scrutiny …
should be lowered because of a possible [financial]
benefit to the ACLU” from its legal practice. 436 U.S.
at 428. More broadly, financial motives do not strip
expressive activity of First Amendment protection.
Bd. of Trs. of the State Univ. of N.Y. v. Fox, 492 U.S.
469, 482 (1989) (“Some of our most valued forms of
fully protected speech are uttered for a profit.”). To
the extent the Association’s motives might impact the
analysis, the Fourth Circuit’s analogy is inapt. The
Association is not seeking to generate personal
wealth; it is a non-profit seeking to advance its
mission of helping employer-employee relations.
C.A.J.A. 173, 430, 518-524.
The Fourth Circuit also ignored the Court’s more
recent teaching that “[t]he First Amendment’s
protection of expressive association is not reserved for
advocacy groups.” Boy Scouts of Am. v. Dale, 530 U.S.
640, 648 (2000). Education and instruction are forms
of expressive activity. See id. at 644, 650; Roberts v.
U.S. Jaycees, 468 U.S. 609, 636 (1984) (O’Connor, J.,
concurring); see also Sanitation & Recycling Indus. v.
Cty. of N.Y., 107 F.3d 985, 998 (2d Cir. 1997) (holding

29
that trade association is an expressive association
based on its “educational function, helping [members]
comply with complex regulations governing [their]
business”). The Association seeks to accomplish its
mission of helping employer-employee relations by
educating and instructing members on how to comply
with the law, but North Carolina abridges its right to
do so.
The Fourth Circuit stated that the First
Amendment is only at issue when UPL statutes
prohibit an organization from providing “meaningful
access to the courts.” App. 12a (internal quotation
marks omitted). The court dismissed the Association
as only seeking to “reduce some of its members’ legal
bills.” Id.
Again, the Fourth Circuit ignored this Court’s
teachings. United Transportation Union expressly
recognized the right “to act collectively to obtain
affordable and effective legal representation.” 401
U.S. at 584 (emphasis added). The Court reversed the
Michigan Supreme Court for “fail[ing] to follow”
Button, Trainmen, and Mine Workers, which
recognized “the First Amendment principle that
groups can unite to assert their legal rights as
effectively and economically as practicable.” 401 U.S.
at 579-580 (emphasis added). Button found a First
Amendment violation when there was “neither claim
nor proof” that the NAACP’s members “have desired,
but have been prevented from retaining, the services
of other counsel.” 371 U.S. at 443-444.
Finally, the Fourth Circuit pointed to supposed
“ethical concerns” that prevented the First
Amendment from protecting the Association. The
panel did not identify any specific problems, but

30
instead stated that the proposed structure in which
licensed attorneys would be supervised by nonattorneys “could compromise the independence and
professional judgment of the lawyers” and “the
corporation’s interests could trump loyalty to clients.”
App. 12a (emphases added).
The Court rejected these speculative harms fifty
years ago in Mine Workers, describing the “dangers
of … conflicting interests between the association and
individual litigants far too speculative to justify the
broad remedy invoked by the State.” 389 U.S. at 223;
Button, 371 U.S. at 443 (rejecting similar arguments
where “the aims and interests of [the] NAACP have
not been shown to conflict with those of its members
and nonmember … litigants”). The Fourth Circuit did
not identify any “substantive evils flowing from [the
Association]’s activities, which can justify the broad
prohibitions … imposed.” Button, 371 U.S. at 444.
The panel also ignored a robust record
establishing that North Carolina universally
tolerates ethical pressures on attorneys in other
settings. See C.A.J.A. 877-878, 887 (in general); 333335, 901-902, 922-923 (prepaid legal services plans);
745-746, 875, 879 (law firms); 862-863, 879-886
(insurance defense); 817 (in-house counsel); 863-865
(public defenders). The North Carolina State Bar has
itself acknowledged that attorneys supervised by nonattorneys can comply fully with ethical rules. 2013
N.C. State Bar Formal Ethics Op. 9 (Oct. 25, 2013),
reprinted in North Carolina State Bar, The 2014
Lawyer’s Handbook 10-249 (2014).
Rather than applying no scrutiny to the UPL
statutes, the Fourth Circuit was bound to apply strict
scrutiny because the UPL statutes impose a

31
substantial burden on the Association’s associative
rights. See, e.g., Primus, 436 U.S. at 432; Button, 371
U.S. at 438. Had the panel done so, the UPL statutes
would have clearly failed, just as similar restrictions
did in Button and the Union Cases. In the absence of
any actual harm, the Fourth Circuit’s purely
speculative concerns about what “could” happen, App.
12a, are insufficient justification for the wholesale
restriction of the Association’s associative rights.
III. THE
UPL
STATUTES
ARE
AN
UNCONSTITUTIONAL CONTENT-BASED
RESTRICTION ON THE ASSOCIATION’S
SPEECH
The UPL statutes impose a substantial, contentbased burden on the Association’s speech. The Fourth
Circuit’s decision to apply intermediate scrutiny to
the statutes conflicts with this Court’s settled First
Amendment jurisprudence and permits the States
great leeway to burden speech through licensing
regimes.
The Association’s licensed attorneys are
competent to answer members’ questions, and both
the Association and the members desire that they be
able to answer; but the UPL statutes prohibit them
from doing so whenever the answer might contain
legal advice. See supra p. 9-10. This is content-based
censorship of speech: the Association “want[s] to
speak to [its members], and whether [it] may do so
under [the law] depends on what [it] say[s].” Holder
v. Humanitarian Law Project, 561 U.S. 1, 27 (2010).
The Fourth Circuit upheld this censorship without
strictly scrutinizing the UPL statutes. The Fourth
Circuit nodded at this Court’s recent decision in
National Institute of Family and Life Advocates v.

32
Becerra, 138 S. Ct. 2361, 2375 (2018), but ignored this
Court’s teaching that courts should subject
restrictions on professional speech to strict scrutiny,
as they should all other content-based restrictions.
This Court specifically warned about the dangers that
licensing regimes pose to free speech, and yet the
Fourth Circuit adopted a rule that allows broad
prohibitions on speech so long as they are part of a
professional licensing regime.
Given the protectionist history of the UPL
statutes, there is little doubt that the content-based
censorship they impose was intended to benefit
certain speakers at the expense of others. See supra
p. 9. Nonetheless, the Fourth Circuit held that the
UPL statutes’ impact on speech was “merely
incidental to the [State’s] primary objective of
regulating the conduct of the profession” of law. App.
16a; see also id. at 15a (“[A]ny impact the UPL
Statutes have on speech is incidental to the
overarching purpose of regulating who may practice
law.”). The censorship of the Association’s speech,
however, is not “incidental”—it is direct, substantial,
and content-based.
A. The UPL Statutes Regulate Speech, And
Their Impact Is Substantial, Not
Incidental
The Fourth Circuit’s holding that the UPL statutes
are a regulation of conduct that cause only an
incidental impact on speech cannot be squared with
this Court’s recent decision in NIFLA. In NIFLA, the
Court recognized that the Fourth Circuit and some
other appellate courts “except[ed]” so-called
“professional speech from the rule that content-based
regulations of speech are subject to strict scrutiny.”

33
138 S. Ct. at 2371. NIFLA rejected the idea that
“professional speech” is “a unique category that is
exempt from ordinary First Amendment principles.”
Id. at 2375. The Court recognized, however, that it had
applied less scrutiny to laws that “regulate professional
conduct, even though that conduct incidentally involves
speech.” Id. at 2372. As examples of regulations on
conduct that have an incidental impact on speech, the
Court pointed to regulations of conduct that itself
causes identifiable harm, such as professional
malpractice, anticompetitive agreements, and failure
to give informed consent. Id. at 2373; App. 14a.
In NIFLA, the Court nowhere suggested that the
practice of an entire profession could qualify as the
regulated conduct. To the contrary, the Court warned
about the danger of licensing requirements that
regulated entire professions. 138 S. Ct. at 2375-2376.
However, the Fourth Circuit held that the UPL
statutes, as applied to censor the Association’s legal
advice, are a conduct regulation—identifying the
conduct as the “practice [of] law.” App. 15a. This
reasoning conflicts with NIFLA and longstanding
precedent.
In NIFLA, the Court noted that legal advice is
protected speech. The Court explained that its
decision in Zauderer v. Office of Disciplinary Counsel
of Supreme Court of Ohio, 471 U.S. 626 (1985),
“emphasized that [a] lawyer’s statements ... would
have been ‘fully protected’ if they were made in a
context other than advertising.” 138 S. Ct. at 2374
(quoting Zauderer, 471 U.S. at 637 n.7). Notably, the
speech in Zauderer, which, absent the advertising
content, would have been fully protected, was
“statements regarding the legal rights of persons
injured”—in other words: legal advice. 471 U.S. at

34
637 n.7. NIFLA likewise highlighted the decision in
Humanitarian Law Project, which strictly scrutinized
a federal law that censored “organizations that
provided specialized advice about international law.”
NIFLA, 138 S. Ct. at 2374 (emphasis added).
The Court’s decision in Humanitarian Law Project
further elucidates the error in the Fourth Circuit’s
treatment of the UPL statutes.
There, the
Government defended a statute that prohibited
offering “material support” to terrorist groups as a
conduct regulation. 561 U.S. at 8-9, 27-28. The Court
rejected that argument, explaining that, although
“[t]he law here may be described as directed at
conduct ... [,] as applied to plaintiffs the conduct
triggering coverage under the statute consists of
communicating a message.” Id. at 28. Thus, the
statute “regulates speech on the basis of its content.
Plaintiffs want to speak to [certain groups], and
whether they may do so under [Section] 2339B
depends on what they say.” Id. at 27. The Court
analogized Section 2339B to the breach-of-peace law
in Cohen v. California, 403 U.S. 15 (1971), which the
Court strictly scrutinized because it was directed at
Cohen due to “what his speech communicated.” 561
U.S. at 27–28 (citing Cohen, 403 U.S. at 18-19). In the
end, the Court in Humanitarian Law Project strictly
scrutinized the censorship of the speech. See id. at
28-39.
As the Court has recognized, the practice of law
involves substantial speech—speech that is not
necessarily incidental to conduct. In censoring the
Association’s legal advice, “[t]he only ‘conduct’ which
the State [seeks] to punish is the fact of
communication.’” Cohen, 403 U.S. at 18. The UPL

35
statutes’ impact on the Association’s speech is not
“incidental”; the censorship is direct and substantial.
B. The Fourth Circuit’s Holding Permits
States To Impose Significant Speech
Restrictions Through Licensing Regimes
By identifying the “practice [of] law” as the
conduct regulated by the UPL statutes, the Fourth
Circuit effectively reestablished the so-called
“professional speech doctrine” that the Court rejected
just months ago in NIFLA. The court held that the
wholesale exclusion of categories of speakers—in this
case, non-profit associations—would receive reduced
scrutiny because the censorship was part of a
“licensing regime,” App. 14a, that “regulat[es] the
conduct of the profession.” App. 16a.
The Court warned against the dangers of licensing
regimes in NIFLA. In rejecting the professionalspeech doctrine, the Court recognized that lower
“courts define ‘professionals’ as individuals who … are
subject to ‘a generally applicable licensing and
regulatory regime.’” 138 S. Ct. at 2371 (quoting
Moore-King v. County of Chesterfield, 708 F.3d 560,
569 (4th Cir. 2013)). The Court explained that such a
broad definition gave “the States unfettered power to
reduce a group’s First Amendment rights by simply
imposing a licensing requirement” that excluded
disfavored speakers. 138 S. Ct. at 2375. Nonetheless,
the Fourth Circuit below held that the “[l]icensing
laws” at issue had a “merely incidental” impact on the
Association’s speech. App. 16a. Although the Court
cautioned just months before that the States could not
“choose the protection that speech receives” through
the use of licensing regimes, the Fourth Circuit

36
permitted North Carolina to do just that. 138 S. Ct.
at 2375.
The panel compounded the problem by failing to
apply any meaningful scrutiny to the UPL statutes.
The Fourth Circuit purported to apply “intermediate
scrutiny,” App. 18a, which requires that the
regulation be narrowly tailored to serve a substantial
governmental interest. United States v. O’Brien, 391
U.S. 367, 377 (1968). The panel identified the state’s
substantial interest as “protect[ing] clients”; however,
the panel described the threat to clients as
speculative harm that “could” occur. App. 18a
(emphasis added). The panel then held that a blanket
prohibition on the Association offering legal advice
was “sufficiently drawn” to address this narrow,
speculative interest. Id. This is not narrow tailoring.
A tailored remedy would require non-profit
associations to implement safeguards to ensure client
loyalty—something the Association has proposed, and
that the state already requires of other non-profit
organizations that are allowed to offer legal services.
See N.C. Gen. Stat. § 84-5.1.
The Fourth Circuit’s continued willingness to
tolerate the censorship of professional speech through
licensing regimes poses grave dangers to speech of all
kinds.
Here, North Carolina’s licensing regime
censors the speech of non-profit corporations. This is
but one example. As NIFLA recognized, licensing
regimes impact “a wide array of individuals—doctors,
lawyers, nurses, physical therapists, truck drivers,
bartenders, barbers, and … even … fortune tellers.”
138 S. Ct. at 2375. As this case demonstrates, they
may also impact corporate entities. See Citizens
United v. Fed. Election Comm’n, 558 U.S. 310, 342

37
(2010) (“The Court has recognized that First
Amendment protection extends to corporations.”).
Under the Fourth Circuit’s rule, the States may
continue to regulate the speech of disfavored speakers
on many topics and in many fields by imposing
licensing requirements that exclude—or place
substantial burdens upon—these speakers. That
contravenes the clear teaching of NIFLA, and puts the
free speech of many at risk.
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
Charles E. Coble
Julia C. Ambrose
Craig D. Schauer
Eric F. Fletcher
BROOKS, PIERCE,
McLENDON,
HUMPHREY &
LEONARD LLP
150 Fayetteville Street
Suite 1700
Raleigh, NC 27601
(919) 839-0300
AUGUST 2019

Reid L. Phillips
Counsel of Record
Jennifer Van Zant
BROOKS, PIERCE,
McLENDON,
HUMPHREY &
LEONARD LLP
2000 Renaissance Plaza
230 North Elm Street
Greensboro, NC 27401
(336) 373-8850
rphillips@brookspierce.com

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
Published Opinion of
The United States Court of Appeals
For the Fourth Circuit
entered April 19, 2019 ................................... 1a
Memorandum Opinion and Order of
The United States District Court
For the Middle District of North Carolina
entered September 19, 2017 ........................ 25a

1a
[ENTERED: April 19, 2019]
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 17-2218
CAPITAL ASSOCIATED INDUSTRIES,
INCORPORATED,
Plaintiff − Appellant,
v.
JOSH STEIN, in his official capacity as Attorney
General of the State of North Carolina; NANCY
LORRIN FREEMAN, In her official capacity as
District Attorney for the 10th Prosecutorial District of
the State of North Carolina; J. DOUGLAS
HENDERSON, In his official capacity as District
Attorney for the 18th Prosecutorial District of the
State of North Carolina,
Defendants – Appellees,
and
NORTH CAROLINA STATE BAR,
Intervenor/Defendant – Appellee.
Appeal from the United States District Court for the
Middle District of North Carolina, at Greensboro.

2a
Loretta C. Biggs, District Judge. (1:15-cv-00083-LCBJLW)
Argued: December 13, 2018
Decided: April 19, 2019
Before GREGORY, Chief Judge, DIAZ, Circuit Judge,
and DUNCAN, Senior Circuit Judge.
Affirmed by published opinion. Judge Diaz wrote the
opinion, in which Chief Judge Gregory and Senior
Judge Duncan joined.
ARGUED: Reid Lloyd Phillips, BROOKS, PIERCE,
MCLENDON, HUMPHREY, & LEONARD, L.L.P.,
Greensboro, North Carolina, for Appellant. Alan
William Duncan, MULLINS DUNCAN HARRELL &
RUSSELL PLLC, Greensboro, North Carolina, for
Appellees.
ON BRIEF:
Jennifer K. Van Zant,
Charles E. Coble, Craig D. Schauer, BROOKS,
PIERCE, MCLENDON, HUMPHREY & LEONARD,
L.L.P., Greensboro, North Carolina, for Appellant.
Stephen M. Russell, Jr., MULLINS DUNCAN
HARRELL & RUSSELL PLLC, Greensboro, North
Carolina, for Appellee North Carolina State Bar.
Joshua H. Stein, Attorney General, Matthew W.
Sawchak, Solicitor General, NORTH CAROLINA
DEPARTMENT OF JUSTICE, Raleigh, North
Carolina, for Appellees Joshua H. Stein, Nancy Lorrin
Freeman, and J. Douglas Henderson.

3a
DIAZ, Circuit Judge:
Capital Associated Industries, Inc. (“CAI”) is a
trade association representing North Carolina
employers.
As part of a plan to expand its
membership, CAI wants to provide legal services to
its members. But it cannot because state law forbids
corporations from practicing law.
Following
unsuccessful lobbying efforts to change the law, CAI
sued state prosecutors to enjoin the enforcement of
state unauthorized practice of law (“UPL”) statutes
against it. After the North Carolina State Bar
intervened to defend the statutes, the defendants
obtained summary judgment.
On appeal, CAI
contends that North Carolina’s UPL statutes violate
its constitutional rights to free association, free
speech, and commercial speech; lack a rational basis;
are void for vagueness; and violate the state
constitution. For the reasons that follow, we affirm.
I.
A.
Since 1931, the State of North Carolina has
forbidden corporations from practicing law. N.C. Gen
Stat. § 84-5(a).1 To address the unauthorized practice
of law, the State Bar and state prosecutors may sue
for an injunction, and prosecutors may bring
North Carolina is not alone in doing so. Almost all
other states have similar laws on the books. J.A. 754. One state
allows unincorporated nonprofit “association[s]” to practice law.
42 Pa. Cons. Stat. § 2524(b)(1). And CAI points to trade
associations practicing law in a few other states. J.A. 181, 197,
213. But at least one of those states bans corporations from
practicing law. See 705 Ill. Comp. Stat. 220/1.
1

4a
misdemeanor charges. Id. §§ 84-37, 84-7, 84-8(a).
The UPL statutes do, however, allow the practice of
law by lawyer-owned professional corporations,
public interest law firms, and in-house counsel
representing their employers. Id. §§ 55B-8, 84-5.1.
CAI is a North Carolina nonprofit corporation
that claims a tax exemption under 26 U.S.C.
§ 501(c)(6) as a trade association of employers. It has
about 1,100 North Carolina employers as members
and describes its mission as fostering successful
employment relationships. CAI charges its members
an annual fee adjusted for each member’s size. It
competes with for-profit businesses in providing some
services, such as recruiting, background checks,
consulting, training, conferences, and affirmative
action planning.
One of the most popular services it provides its
members is a call center, where members can speak
to CAI’s staff of human resources experts. The experts
can advise on HR issues. But they can’t give legal
advice, even if they are licensed attorneys. So, when
legal issues arise, CAI’s HR experts have to steer the
conversation elsewhere, end the conversation, or refer
the member to outside counsel.
While it disclaims any interest in representing
its members in court, CAI would like to help them
draft legal documents (such as contracts or employee
handbooks) and answer questions about employment
and labor law. If it could practice law, CAI would offer
most legal services without charge as part of its
membership fees, but it would charge hourly fees for
certain services.

5a
CAI has spent years trying to change the UPL
statutes as part of its “2X” development plan to double
its membership and reach. In 2011, CAI’s lobbyists
persuaded state lawmakers to introduce bills that
would have allowed corporations to practice law. CAI
tried and failed to get the State Bar to support the
bills. The State Bar instead actively opposed the bills,
and they were not enacted. CAI’s lobbying efforts met
a similar fate in 2013. That same year, the State Bar
adopted a proposed ethics opinion advising that CAI
would violate the UPL statutes if it employed lawyers
to give its members legal advice.
B.
After two failed bids to achieve its goals
through legislation, CAI turned to the courts. It
challenged the UPL statutes in federal district court,
naming as defendants the attorney general of
North Carolina and certain district attorneys. The
complaint sought declaratory and injunctive relief
that would prevent enforcement of North Carolina’s
UPL laws against it. It pleaded five claims under
42 U.S.C. § 1983 (concerning due process, free
association, free speech, vagueness, and commercial
speech) and one claim under the state constitution.
The district court allowed the State Bar to
intervene as a defendant. It then denied CAI’s motion
for a preliminary injunction and the defendants’
motions to dismiss and for judgment on the pleadings.
Capital Associated Indus., Inc. v. Cooper, 129 F. Supp.
3d 281 (M.D.N.C. 2015); Capital Associated Indus.,
Inc. v. Cooper, No. 1:15CV83, 2016 WL 6775484
(M.D.N.C. June 23, 2016). After discovery, the parties
cross-moved for summary judgment.

6a
Before the district court, State Bar
representatives expressed concerns about nonlawyers
controlling litigation and receiving attorney fees,
confidentiality, excessive fees, and the State Bar’s
inability to discipline corporations. Regarding CAI,
they worried about conflicts of interest due to its large
base of members and the fact that its directors and
officers don’t have to be lawyers and thus wouldn’t
have obligations under the State Bar’s Rules of
Professional Conduct.
To assuage these concerns, CAI filed
declarations from three trade organizations
practicing law in other states, and it outlined a plan
to comply with ethics rules. CAI’s lawyers would
control legal services, make decisions about conflicts
of interest, and have sole access to privileged
communications. But CAI’s directors and president
would set the attorneys’ salaries and the legal
department’s budget.
And CAI declined to offer
assurances that it would require its directors and
officers to be attorneys.
Some of CAI’s members testified that allowing
CAI to practice law would mean that they could
obtain more efficient and cost-effective legal
representation. But almost all those members said
they had received legal advice from private attorneys.
Just one member said it had gone without counsel in
low-risk situations, but even it found counsel for more
serious matters. And according to CAI’s President
and CEO, no member has left CAI because it doesn’t
offer legal services.
Addressing the cross-motions for summary
judgment, the district court first held that CAI had

7a
standing because it faced “a credible threat of
prosecution” if it practiced law. Capital Associated
Indus., Inc. v. Stein (CAI), 283 F. Supp. 3d 374, 380
(M.D.N.C. 2017).2 The district court then turned to
the merits and rejected all six of CAI’s claims,
entering summary judgment for the defendants. Id.
at 383–92.
This appeal followed.
II.
We review the district court’s grant of
summary judgment de novo. Dreher v. Experian Info.
Sols., Inc., 856 F.3d 337, 343 (4th Cir. 2017). “[W]e
apply the same legal standards as the district court,
and view all facts in the light most favorable to the
nonmoving party.” Id. (quoting Roland v. U.S.
Citizenship & Immigration Servs., 850 F.3d 625, 628
(4th Cir. 2017)).
CAI framed all six of its claims as as-applied
challenges, which test the constitutionality of a
statute applied to the plaintiff based on the record.
Educ. Media Co. at Va. Tech, Inc. v. Insley, 731 F.3d
291, 298 n.5 (4th Cir. 2013). Thus, CAI was not
required to prove that the UPL statutes are invalid in
all circumstances. Id.
While the parties’ briefs don’t address standing, this
court must assure itself of its jurisdiction. See Steel Co. v.
Citizens for a Better Env’t, 523 U.S. 83, 94 (1998). We agree with
the district court that CAI faces a credible threat of prosecution.
See MedImmune, Inc. v. Genentech, Inc., 549 U.S. 118, 128–29
(2007); N.C. Right to Life, Inc. v. Bartlett, 168 F.3d 705, 710–11
(4th Cir. 1999). That injury is traceable to state prosecutors, and
enjoining enforcement of the statutes would provide CAI relief.
CAI, 283 F. Supp. 3d at 380–81.
2

8a
III.
We begin with CAI’s claim that the UPL
statutes violate its freedom of association. CAI
contends that it is an expressive association seeking
to improve employment relationships in North
Carolina and foster compliance with the law.3 By
forbidding it from practicing law, CAI argues, the
UPL statutes restrict its ability to carry out that
expressive mission. We agree with the district
court, however, that the UPL statutes do not
unconstitutionally restrict CAI’s associational rights.
To support its argument, CAI relies on a line of
cases beginning with NAACP v. Button, 371 U.S. 415
(1963). In Button, the Supreme Court held that a
Virginia law forbidding organizations from retaining
attorneys to represent third parties infringed on the
right of the NAACP and its members “to associate for
the purpose of assisting persons who seek legal
redress for infringements” of their civil and
constitutional rights. Id. at 428.
The Court emphasized that for the NAACP,
litigation is “not a technique of resolving private
differences; it is a means for achieving the lawful
The Supreme Court has recognized the right to
associate “for the purpose of engaging in those activities
protected by the First Amendment,” which it termed “expressive
association.” Roberts v. U.S. Jaycees, 468 U.S. 609, 618 (1984).
The defendants contend that CAI forfeited review of whether the
UPL statutes infringed on its rights as an expressive association.
Appellees’ Br. at 34–36. CAI did largely omit the term “expressive
association” below. But its arguments fall within expressive
association jurisprudence and the district court ruled on the
issue, so it is preserved for review. See Volvo Constr. Equip. N.
Am., Inc. v. CLM Equip. Co., 386 F.3d 581, 604 (4th Cir. 2004).
3

9a
objectives of equality of treatment.” Id. at 429. To
win civil rights, the Court said, litigation may be the
“sole practicable avenue” and the “most effective form
of political association.” Id. at 430–31. Thus, what was
at stake was “secur[ing] constitutionally guaranteed
civil rights,” not commercial ends. Id. at 442–43. And
as the Court took time to emphasize, the law as applied
against the NAACP did not implicate “professionally
reprehensible conflicts of interest.” Id. at 443.
The Supreme Court has applied Button in two
contexts.
The first, involves public interest
organizations like the NAACP. See In re Primus, 436
U.S. 412 (1978). In Primus, the Court held that South
Carolina couldn’t forbid the ACLU from advising
people of their legal rights and informing them that
the ACLU could represent them for free. Id. at 431–
32. The Court compared the ACLU’s role to that of
the NAACP in Button and contrasted it with “a group
that exists for the primary purpose of financial gain.”
Id. at 427–31.
It cast doubt on whether an
organization operating for financial gain would
receive the same protection as organizations that
promote the common political aims of their members.
Id. at 429–30, 437–38, 438 n.32.
The second context involves labor unions. See
Bhd. of R.R. Trainmen v. Va. ex rel. Va. State Bar, 377
U.S. 1 (1964). The Trainmen Court held that Virginia
couldn’t bar a union from recommending lawyers to
its members for workers’ compensation suits. Id. at 7–
8. The Virginia law, the Court said, infringed on “the
right of individuals and the public to be fairly
represented in lawsuits authorized by Congress to
effectuate a basic public interest” without adequate
justification. Id.

10a
The Court has extended Trainmen twice. First,
it held that Illinois couldn’t prevent a union from
employing attorneys to represent its members in
workers’ compensation claims. United Mine Workers
v. Ill. State Bar Ass’n, 389 U.S. 217, 223–25 (1967).
While the Court considered that law unjustified, it
emphasized that the state did possess an “interest in
high standards of legal ethics.” Id. at 224–25.
Second, the Court held that Michigan couldn’t bar a
union from recommending to its members certain
attorneys who had agreed to a maximum fee. United
Transp. Union v. State Bar of Mich., 401 U.S. 576,
585–86 (1971). “At issue,” the Court said, “is the basic
right to group legal action” and the right to
“meaningful access to the courts,” which required
enabling union members to “meet the costs of legal
representation.” Id.
The “common thread running through” these
cases is that “collective activity undertaken to obtain
meaningful access to the courts is a fundamental
right.” United Transp. Union, 401 U.S. at 585–86; see
also Lawline v. Am. Bar Ass’n, 956 F.2d 1378, 1387
(7th Cir. 1992) (United Mine Workers “supports the
proposition that laypersons have a right to obtain
meaningful access to the courts, and to enter into
associations with lawyers to effectuate that end.”).
Critically, however, the cases distinguish between the
commercial practice of law and “associating for noncommercial purposes to advocate the enforcement
of legal and constitutional rights.” In re N.H.
Disabilities Rights Ctr., Inc., 541 A.2d 208, 213 (N.H.
1988) (Souter, J.).
The Supreme Court emphasized this
distinction in Ohralik v. Ohio State Bar Ass’n, the

11a
same day it decided Primus. 436 U.S. 447 (1978). In
Ohralik, the Court rejected a challenge to an Ohio
law forbidding in-person solicitation of clients.
Solicitation of clients for commercial purposes, the
Court held, did not implicate “political expression or
an exercise of associational freedom” or “mutual
assistance in asserting legal rights.” Id. at 458.
As applied to CAI, North Carolina’s UPL laws
are closer to the statute in Ohralik than the statutes
in the Button cases. While this case is admittedly
close, several considerations distinguish CAI’s
proposed practice from the Button line of cases. First,
what CAI seeks to accomplish would be for
commercial ends and would address only private
concerns. Second, it would not facilitate access to the
courts. And third, it would pose ethical concerns not
present in the Button cases.
When organizations like the NAACP and the
ACLU solicit clients and retain lawyers to represent
them, they express their commitment to expanding
and guarding civil rights. See Button, 371 U.S. at
430–31; Primus, 436 U.S. at 428–30. CAI, in contrast,
wants to help its members “resolv[e] private
differences” by drafting legal documents and advising
employers on labor and employment issues. Button,
371 U.S. at 429. Its goal, as set forth in its 2X plan,
is to increase revenues and recruit new members who
will pay dues and additional legal fees. CAI would
charge by the hour for some services. While other
services would be included in its membership fees,
CAI’s chairman said the trade association might
increase its fees if it could practice law. CAI thus seeks
to practice law for commercial ends, like a private
attorney—not to associate for political or otherwise

12a
public goals. And while we accept that CAI engages
in some expressive activity, CAI proposes to practice
law for commercial ends, not to express a message.
Nor does CAI propose to engage in “collective
activity undertaken to obtain meaningful access to
the courts.” Primus, 436 U.S. at 441 (quoting United
Transp. Union, 401 U.S. at 585). As described in the
record, CAI’s members have consistently had access
to legal services and the courts. And CAI has no
intention of litigating in any forum. So, unlike the
organizations in the Button cases, CAI would not
facilitate access to justice or vindicate its members’
constitutional or statutory rights. Cf. Trainmen, 377
U.S. at 7–8. CAI’s proposed practice might reduce
some of its members’ legal bills. But nothing in the
record shows that CAI’s inability to practice law
means that its members can’t “meet the costs of legal
representation” or obtain “meaningful access to the
courts.” United Transp. Union, 401 U.S. at 585–86.
The Supreme Court has, moreover, extended
associational rights only when the proposed practice of
law wouldn’t raise ethical concerns. See Button, 371
U.S. at 443; Trainmen, 377 U.S. at 6; Primus, 436 U.S.
at 422, 429–30. CAI’s proposed practice, in contrast,
does raise ethical concerns. Specifically, its members
would pay legal fees for representation by attorneys
supervised by officers and directors who are not
attorneys. That structure (even if housed in a nonprofit
entity) could compromise the independence and
professional judgment of the lawyers involved, and the
corporation’s interests could trump loyalty to clients.
In sum, several features of CAI’s proposed
practice distinguish it from the organizations in the

13a
Button cases. As a result, like the solicitation statute
in Ohralik, North Carolina’s UPL statutes “only
marginally affect[] . . . First Amendment concerns.”
436 U.S. at 459. Because they do not “substantially
impair[] the associational rights” of CAI, we need not
examine whether the state’s interests suffice to justify
them. United Mine Workers, 389 U.S. at 225; see also
Lawline, 956 F.2d at 1387 (declining to apply
heightened scrutiny because there was no deprivation
of associational rights). We hold that the UPL
statutes do not violate CAI’s associational rights.
IV.
Next, CAI argues that the UPL statutes
unlawfully burden its freedom of speech. The district
court rejected this claim based on the so-called
“professional speech doctrine.” CAI, 283 F. Supp. 3d
at 385–86. When the district court ruled, this circuit
and others applied lesser standards of scrutiny to
professionals’ speech to clients. See Pickup v. Brown,
740 F.3d 1208, 1228–31 (9th Cir. 2014); King v.
Governor, 767 F.3d 216, 224–25, 228–29 (3d Cir.
2014); Moore-King v. County of Chesterfield, 708 F.3d
560, 569 (4th Cir. 2013). But after the briefing in this
appeal, the Supreme Court disapproved of this
doctrine as defined in Pickup, King, and Moore-King.
See Nat’l Inst. of Family & Life Advocates v. Becerra
(NIFLA), 138 S. Ct. 2361, 2371–72, 2375 (2018).
In NIFLA, the Court addressed a California
law requiring certain clinics that primarily serve
pregnant women to post notices about what services
they didn’t offer and about free state services. Id. at
2368–70. Although the law applied in a professional
context, the Court approached the case as it would

14a
any other involving compelled speech. Id. at 2374–75.
It held that the law was content-based. Id. at 2371.
And because it held that the law could not survive
intermediate scrutiny, the Court declined to decide
whether strict scrutiny should apply. Id. at 2375–77.
The Court did, however, recognize two
situations in which states have broader authority to
regulate the speech of professionals than that of
nonprofessionals. First, there is “more deferential
review” for requirements that professionals “disclose
factual, noncontroversial information” in their
commercial speech. Id. at 2372. Second, “[s]tates
may regulate professional conduct, even though that
conduct incidentally involves speech.” Id. As examples
of this latter category, the Court cited cases about
malpractice, anticompetitive agreements, client
solicitation, and informed consent. Id. at 2372–73.
On appeal, North Carolina describes the ban on
corporate law practice as a regulation of professional
conduct that incidentally burdens speech, which only
needs to survive intermediate scrutiny. In contrast,
CAI describes it as a content-based and identitybased regulation of speech that must survive strict
scrutiny. As explained below, we agree with the state
that the law passes—and only needs to pass—
intermediate scrutiny.
A.
North Carolina’s ban on the practice of law by
corporations fits within NIFLA’s exception for
professional regulations that incidentally affect
speech. 138 S. Ct. at 2372–73. The ban is part of a
generally applicable licensing regime that restricts

15a
the practice of law to bar members and entities
owned by bar members. Cf. Goldfarb v. Va. State Bar,
421 U.S. 773, 792 (1975) (“We recognize that the
States have . . . broad power to establish standards for
licensing practitioners and regulating the practice of
professions.”). In this case, any impact the UPL
statutes have on speech is incidental to the
overarching purpose of regulating who may practice
law. Cf. Lawline, 956 F.2d at 1386 (holding that an
ethical rule prohibiting lawyers from assisting in the
unauthorized practice of law has only an incidental
impact on speech).
Many laws that regulate the conduct of a
profession or business place incidental burdens on
speech, yet the Supreme Court has treated them
differently than restrictions on speech. For example,
while obtaining informed consent for abortion
procedures implicates a doctor’s speech, the state may
require it “as part of the practice of medicine, subject
to reasonable licensing and regulation.” Planned
Parenthood of Se. Pa. v. Casey, 505 U.S. 833, 884
(1992) (opinion of O’Connor, Kennedy, & Souter, JJ.).
Bans on discrimination, price regulations, and laws
against anticompetitive activities all implicate
speech—some may implicate speech even more directly
than licensing requirements. But the Supreme Court
has analyzed them all as regulations of conduct. See
Expressions Hair Design v. Schneiderman, 137 S. Ct.
1144, 1150–51 (2017); Rumsfeld v. Forum for Acad. &
Inst. Rights, Inc., 547 U.S. 47, 62 (2006); Giboney v.
Empire Storage & Ice Co., 336 U.S. 490, 502 (1949).
As CAI recognizes, the practice of law has
communicative and non- communicative aspects. The
UPL statutes don’t target the communicative aspects

16a
of practicing law, such as the advice lawyers may give
to clients. Instead, they focus more broadly on the
question of who may conduct themselves as a lawyer.
Licensing laws inevitably have some effect on the
speech of those who are not (or cannot be) licensed.
But that effect is merely incidental to the primary
objective of regulating the conduct of the profession.
B.
Having determined that the UPL statutes
regulate conduct, we turn to the appropriate standard
of review. CAI urges us to apply strict scrutiny,
contending that the UPL statutes restrict speech based
on the content and on the speaker. We think the
correct reading of Supreme Court precedent, however,
is that intermediate scrutiny should apply to
regulations of conduct that incidentally impact speech.
When the Supreme Court has reviewed
restrictions on conduct that incidentally burden
speech, it has not applied strict scrutiny. It has not,
for example, demanded that laws against employment
discrimination or anticompetitive agreements survive
strict scrutiny. See Rumsfeld, 547 U.S. at 62;
Giboney, 336 U.S. at 502. Price regulations too are
not subject to strict scrutiny (though the standard for
laws that only restrict communications about prices
is unsettled). Expressions Hair Design, 137 S. Ct. at
1150–51. Even laws that implicate speech quite
directly, such as laws requiring doctors—through
spoken words—to obtain informed consent from
patients before an abortion have not been subjected to
strict scrutiny. Casey, 505 U.S. at 884 (opinion of
O’Connor, Kennedy, & Souter, JJ.).

17a
Although the Court’s cases have not been
crystal clear about the appropriate standard of
review, we do know that the state actors involved
were not required to demonstrate a compelling
interest and narrow tailoring. And NIFLA itself
provides ample support for the view that strict
scrutiny shouldn’t apply to the UPL statutes. As
noted, the NIFLA Court chose not to decide whether
strict or intermediate scrutiny applied to the law at
issue. 138 S. Ct. at 2375–77. But the Court did
highlight laws regulating “professional conduct” as an
area in which it “has afforded less protection for
professional speech.” Id. at 2372 (emphasis added).
Thus, we can say with some confidence that the
standard for conduct-regulating laws can’t be greater
than intermediate scrutiny.4

CAI describes the UPL statutes as content-based and
identity-based restrictions on speech. Because the statutes
regulate conduct, we need not engage with these descriptors. See
R.A.V. v. City of St. Paul, 505 U.S. 377, 389–90 (1992). Contentbased restrictions ordinarily receive strict scrutiny. See Reed v.
Town of Gilbert, 135 S. Ct. 2218, 2226–27 (2015). But in many
of the cases concerning conduct, a law had an incidental impact
on speech with particular content—such as anticompetitive
agreements, discriminatory statements, prices, or informed
consent—yet the Supreme Court declined to apply strict
scrutiny. The NIFLA Court mentioned such cases to illustrate
an exception without any indication that they should receive
strict scrutiny, see 138 S. Ct. at 2372–73, despite the sweeping
language about content-based restrictions in some recent cases,
see Reed, 135 S. Ct. at 2226–27. Finally, the Court has treated
identity-based distinctions as part of the inquiry into contentneutrality, not as a separate reason for finding a statute
unconstitutional. See Reed, 135 S. Ct. at 2230–31; Turner
Broadcasting Sys., Inc. v. FCC, 512 U.S. 622, 658 (1994). Thus,
labeling the UPL statutes an identity-based restriction doesn’t
change our analysis.
4

18a
In sum, we hold that intermediate scrutiny is
the appropriate standard for reviewing conduct
regulations that incidentally impact speech. We
think this a sensible result, as it fits neatly with the
broad leeway that states have to regulate professions.
See Ohralik, 436 U.S. at 460; Goldfarb, 421 U.S. at
792. For laws with only an incidental impact on
speech, intermediate scrutiny strikes the appropriate
balance between the states’ police powers and
individual rights.
C.
We turn then to consider whether North
Carolina’s ban on the practice of law survives this
standard of review. To survive intermediate scrutiny,
the defendant must show “a substantial state
interest” and a solution that is “sufficiently drawn” to
protect that interest. NIFLA, 138 S. Ct. at 2375.
North Carolina’s interest in regulating the legal
profession to protect clients is at least substantial. In
fact, the Supreme Court has repeatedly described
that interest in even stronger terms. See Ohralik, 436
U.S. at 460; Goldfarb, 421 U.S. at 792.
Barring corporations from practicing law is
sufficiently drawn to protect that interest.
Professional integrity could suffer if the state allows
lawyers to practice on behalf of organizations owned
and run by nonlawyers and to collect legal fees from
clients. Nonlawyers would likely supervise lawyers
representing third-party clients at CAI, which could
compromise professional judgment and generate
conflicts between client interests and the
corporation’s interests.

19a
The state has addressed these problems by
proscribing law practice by organizations that pose
the most danger, while exempting organizations that
pose little danger. Professional corporations, for
example, must be owned exclusively by lawyers. N.C.
Gen. Stat. § 55B-4(2). And public interest law firms
“must have a governing structure that does not
permit” anyone except an “attorney duly licensed . . .
to control the manner or course of the legal services
rendered.” Id. § 84-5.1. Plus, the restrictions on the
fees such firms may receive makes it impossible for
them break even (much less turn a profit) on legal
work. Rev. Proc. 92-59, 1992-2 C.B.
Another state legislature might balance the
interests differently.
But intermediate scrutiny
requires only a “reasonable fit between the challenged
regulation” and the state’s interest—not the least
restrictive means. United States v. Chester, 628 F.3d
673, 683 (4th Cir. 2010) (internal quotation marks
omitted); see Bd. of Trs. of State Univ. of N.Y. v. Fox,
492 U.S. 469, 480–81 (1989). Because North Carolina
has established a reasonable fit between its UPL
statutes and a substantial government interest, the
UPL statutes survive intermediate scrutiny.
V.
CAI also argues that the UPL statutes deny it
due process because they lack a rational basis. CAI
doesn’t contend that its due process claim concerns
fundamental rights, so the UPL statutes are only
subject to rational basis review. Hawkins v. Freeman,
195 F.3d 732, 739 (4th Cir. 1999) (en banc). To pass
muster under rational basis review, legislation “need
only be rationally related to a legitimate government

20a
interest.” Star Sci. Inc. v. Beales, 278 F.3d 339, 348
(4th Cir. 2002).
The state relies on the same justifications it
provided in response to the First Amendment claims.
As our precedent counsels, “there is a rational basis
to restrict corporate . . . ownership of professional
businesses” to protect consumers. Brown v. Hovatter,
561 F.3d 357, 368 (4th Cir. 2009) (citing N.D. State
Bd. of Pharmacy v. Snyder’s Drug Stores, Inc., 414
U.S. 156, 166–67 (1973)). Accordingly, we agree with
the district court that the state’s justifications suffice.
CAI’s remaining arguments—such as the availability
of less restrictive means—are inapposite for rational
basis review. We hold that the UPL statutes do not
deny CAI due process.
VI.
CAI also contends that the UPL statutes are
unconstitutionally vague because they fail to provide
fair notice of what it means to practice law. A statute
is unconstitutionally vague if it “fails to provide a
person of ordinary intelligence fair notice of what is
prohibited, or is so standardless that it authorizes or
encourages seriously discriminatory enforcement.”
United States v. Williams, 553 U.S. 285, 304 (2008).
But “perfect clarity and precise guidance have never
been required even of regulations that restrict
expressive activity.” Ward v. Rock Against Racism,
491 U.S. 781, 794 (1989).
To determine if a statute is vague, we examine
both the statute itself and any limiting constructions
from state courts or agencies. Martin v. Lloyd, 700
F.3d 132, 136 (4th Cir. 2012). State law defines the

21a
term “practice law” as “performing any legal service.”
N.C. Gen. Stat. § 84-2.1(a). The statutory definition
provides a lengthy but unexhaustive list of what does
and doesn’t count as a legal service. Id. §§ 84-2.1(b),
84-2.2. The statute prohibiting the unauthorized
practice of law elaborates on the definition further.
Id. § 84-4.
And North Carolina courts have
expounded on this definition at length.5
CAI’s vagueness challenge fails. The statutes
and state case law collectively provide an extensive
definition of what it means to practice law. Between
them, a person of ordinary intelligence would have
fair notice of what the UPL statutes prohibit. Indeed,
CAI itself understood what it means to practice law
well enough to avoid giving its members legal advice.
CAI points out that State Bar officials couldn’t
present a clear answer to every hypothetical question
asked in their depositions. J.A. 670–76, 791–92. But
fair notice doesn’t require certainty about every
hypothetical situation. Ward, 491 U.S. at 794. We
hold, therefore, that the UPL statutes are not void for
vagueness.
VII.
CAI next contends that the UPL statutes
violate the state constitution’s Monopoly Clause,
See State v. Pledger, 127 S.E.2d 337, 338–39 (N.C.
1962); Seawell v. Carolina Motor Club, 184 S.E. 540, 544 (N.C.
1936); State v. Williams, 650 S.E.2d 607, 611 (N.C. Ct. App.
2007); Lexis-Nexis v. Travishan Corp., 573 S.E.2d 547, 549 (N.C.
Ct. App. 2002); Duke Power Co. v. Daniels, 358 S.E.2d 87, 89
(N.C. Ct. App. 1987); N.C. State Bar v. Lienguard, Inc., No. 11
CVS 7288, 2014 WL 1365418, at *10–12 (N.C. Super. Ct. Apr. 4,
2014).
5

22a
which provides that “[p]erpetuities and monopolies . . .
shall not be allowed.” N.C. Const. art. I, § 34. To
construe state law, we look to decisions of the state’s
highest court or, if needed, decisions of the state’s
intermediate appellate court. Assicurazioni Generali,
S.p.A. v. Neil, 160 F.3d 997, 1002 (4th Cir. 1998).
The Supreme Court of North Carolina has
interpreted this clause to allow “reasonable
regulations” of commerce with a substantial
relationship to public health, safety, or welfare. In re
Certificate of Need for Aston Park Hosp., Inc., 193
S.E.2d 729, 735 (N.C. 1973); see also Am. Motors Sales
Corp. v. Peters, 317 S.E.2d 351, 358–59 (N.C. 1984).
That court has long been deferential toward
professional
regulations,
regularly
upholding
6
professional licensing requirements.
The state high court has twice upheld the ban
on corporate law practice. In Seawell, the Supreme
Court of North Carolina affirmed an injunction
against a corporation for the unauthorized practice of
law, holding that “[t]he statute in question offends
neither the State nor Federal Constitution.” 184 S.E.
at 544. And in Gardner v. North Carolina State Bar,
that court held that an insurance company could not
employ an attorney to represent its insureds, finding
that “[t]here is no merit to th[e] argument” that the
ban on corporate practice “violates Article I of the
See State v. Warren, 114 S.E.2d 660, 666 (N.C. 1960)
(real estate brokers); Roach v. City of Durham, 169 S.E. 149, 151
(N.C. 1933) (plumbers); State v. Lockey, 152 S.E. 693, 696 (N.C.
1930) (barbers); State v. Siler, 84 S.E. 1015, 1016 (N.C. 1915)
(doctors); St. George v. Hardie, 60 S.E. 920, 923 (N.C. 1908)
(riverboat pilots); State v. Hicks, 57 S.E. 441, 442–43 (N.C. 1907)
(dentists); State v. Call, 28 S.E. 517, 517 (N.C. 1897) (doctors).
6

23a
[state constitution] and the Fourteenth Amendment.”
341 S.E.2d 517, 523 (N.C. 1986). Although it is
unclear whether Seawell and Gardner addressed
Monopoly Clause arguments, they illustrate the
leeway North Carolina courts give the legislature to
regulate the legal profession.
State v. Ballance, 51 S.E.2d 731 (N.C. 1949), a
case relied on by CAI, is not to the contrary. That case
concerned a licensing requirement for professional
photography, which the court described as “a private
business unaffected in a legal sense with any public
interest.” Id. at 735. The court saw no serious
dangers from unlicensed photography. Id.; see also
Roller v. Allen, 96 S.E.2d 851, 859 (N.C. 1957)
(invalidating licensing regime for tile layers for
similar reasons). In contrast, it is well established
that the practice of law affects the public interest and
that the unregulated practice of law can pose a
danger. See Seawell, 184 S.E. at 544; In re Applicants
for License, 55 S.E. 635, 636 (N.C. 1906); cf. Ohralik,
436 U.S. at 459–60. Based on the applicable state case
law, this court must conclude that the UPL statutes
do not violate the Monopoly Clause.
VIII.
Last, CAI argues that it has a free speech right
to advertise the legal services it wants to offer. But
this commercial speech claim is not an independent
basis for granting relief, and the state may forbid CAI
from advertising legal services barred by law. Cent.
Hudson Gas & Elec. Corp. v. Pub. Serv. Comm’n of
N.Y., 447 U.S. 557, 563–64 (1980).

24a
IX.
The district court correctly granted the
defendants’ motion for summary judgment. Its
judgment is therefore
AFFIRMED.

25a
[ENTERED: September 19, 2017]
IN THE UNITED STATES DISTRICT COURT FOR
THE MIDDLE DISTRICT OF NORTH CAROLINA
CAPITAL ASSOCIATED
INDUSTRIES, INC.,

)
)
)
Plaintiff,
)
)
v.
)
)
JOSH STEIN, in his official
)
capacity as Attorney General of
)
the State of North Carolina, et al., )
)
Defendants.
)

1:15cv83

MEMORANDUM OPINION AND ORDER
Loretta C. Biggs, District Judge.
Plaintiff, Capital Associated Industries
(“CAI”), initiated this action for declaratory and
injunctive relief, alleging that the enforcement of
Sections 84-4 and 85-5 of the North Carolina General
Statutes (“UPL Statutes”), which govern the
unauthorized practice of law, violate the United
States Constitution and the North Carolina
Constitution, as applied to CAI. (ECF No. 1 ¶¶ 1, 100.)
Before the Court are three motions for summary
judgment brought pursuant to Rule 56 of the Federal
Rules of Civil Procedure by (1) Defendants Josh
Stein,1 Nancy Lorrin Freeman, and J. Douglas
Josh Stein became the Attorney General of the State of
North Carolina on January 1, 2017. Pursuant to Rule 25(d) of
1

26a
Henderson (collectively “State Prosecutors”), (ECF
No. 100); (2) CAI, (ECF No. 103); and (3) IntervenorDefendant, the North Carolina State Bar (the “State
Bar”), (ECF No. 112). For the reasons stated below,
the Court (1) denies State Prosecutors’ motion,
(2) denies CAI’s motion, (3) and grants the State Bar’s
motion.
I.

BACKGROUND

In its Complaint, CAI describes itself as a
tax-exempt, “non-profit employers’ association”
comprised of approximately 1,080 employers
throughout North Carolina that “associate[ ] . . .
to promote industrial development and progress.”
(ECF No. 1 ¶¶ 6, 17.) CAI members pay annual
membership dues to CAI to receive “efficient, low-cost
human resources-related information, advice, data,
education, legislative advocacy, and other benefits
and services pertaining to each member’s human
resources, compliance, and day-to-day management
needs.” (Id. ¶ 17.) In addition to its current offerings,
CAI wishes to provide “employment-related legal
advice and services to its members through licensed
North Carolina attorneys” that it employs, as part of
the dues its members currently pay. (ECF No. 105-1
¶¶ 34, 44.) For a separate fee of $195 per hour, CAI
also wishes to offer its members other legal services
that would include drafting employment, separation,
and non-compete agreements, reviewing employment
policies and handbooks, and representation “in
charges before the Equal Employment Opportunity
the Federal Rules of Civil Procedure, Josh Stein should,
therefore, be substituted for Roy Cooper as a defendant in this
suit. Fed. R. Civ. P. 25(d).

27a
Commission.” (Id. ¶ 44.) The legal services that CAI
wishes to offer would not include providing legal
assistance with matters related to litigation or
“extremely specialized areas of workplace law”
including, for example, “[t]ax matters that relate to
workplace and employee needs.” (ECF No. 106-1 at
64–67.)
In April of 2013, CAI requested from the State
Bar an opinion as to whether CAI’s proposed plan to
provide legal advice and services to its members
would constitute the unauthorized practice of law.
(ECF Nos. 42 ¶¶ 7–9; 42-1.) On May 28, 2013, the
State Bar issued a proposed ethics decision, which
notified CAI that its plan would amount to the
unauthorized practice of law because of CAI’s status
as a corporation not authorized to practice law. (See
ECF No. 42-2.)
On January 23, 2015, CAI filed this lawsuit,
seeking declaratory relief and requesting that State
Prosecutors be enjoined from enforcing the UPL
Statutes against CAI. (ECF No. 1.) CAI alleged that
the enforcement of the UPL Statutes, as applied to
CAI, would violate (1) its right to substantive due
process under the Fourteenth Amendment to the
Constitution, (id. ¶¶ 45–53); (2) its right of association
under the First Amendment, (id. ¶¶ 54–63); (3) its
right to free speech under the First Amendment on
the grounds that the UPL Statutes operate as
content-based restrictions and prevent CAI from
speaking because it is a corporation, (id. ¶¶ 64–72);
(4) its right to due process under the Fourteenth
Amendment on the ground that the UPL Statutes are
vague, (id. ¶¶ 73–82); (5) its right to free speech on
the ground that the UPL Statutes prohibit CAI from

28a
advertising its proposed legal services, (id. ¶¶ 83–91);
and (6) the Monopoly Clause of the North Carolina
Constitution, (id. ¶¶ 92–99). On February 16, 2015,
CAI sought a preliminary injunction, requesting that
the Court enjoin State Prosecutors from taking any
action that would interfere with CAI offering or
delivering legal advice and services to its members
through CAI attorneys licensed to practice law. (ECF
No. 19 at 1.) State Prosecutors moved to dismiss CAI’s
claims. (ECF No. 10.)
The Court heard oral arguments on the
motions on May 29, 2015. On September 4, 2015, this
Court entered a Memorandum Opinion and Order
(“Preliminary Injunction Order”), denying CAI’s
motion for a preliminary injunction, and denying
State Prosecutors’ motion to dismiss. Capital
Associated Indus., Inc. v. Cooper, 129 F. Supp. 3d 281,
308 (M.D.N.C. 2015). State Prosecutors later moved
for judgment on the pleadings, and the Court entered
an Order that denied that motion. Capital Associated
Indus., Inc. v. Cooper, No. 1:15CV83, 2016 WL
6775484, at *2 (M.D.N.C. June 23, 2016). Each Party
has now moved for summary judgment. (ECF Nos.
100, 103, 112.)
II.

LEGAL STANDARD

Summary judgment is appropriate when “the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a). A
dispute is “genuine” if the evidence would permit a
reasonable jury to find for the nonmoving party, and
“[a] fact is material if it might affect the outcome” of
the litigation. Jacobs v. N.C. Admin. Office of the

29a
Courts, 780 F.3d 562, 568 (4th Cir. 2015) (quotations
omitted). The role of the court is not “to weigh the
evidence and determine the truth of the matter” but
rather “to determine whether there is a genuine issue
for trial.” Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 249 (1986). “If the evidence is merely colorable,
or is not significantly probative, summary judgment
may be granted.” Id. at 249–50 (citations omitted).
When reviewing a motion for summary judgment, the
court must “resolve all factual disputes and any
competing, rational inferences in the light most
favorable” to the nonmoving party. Rossignol v.
Voorhaar, 316 F.3d 516, 523 (4th Cir. 2003). When,
as here, a court has before it cross-motions for
summary judgment, “the court must review each
motion separately on its own merits” to determine
whether each party is entitled to judgment as a
matter of law. Id.
III.

DISCUSSION

State Prosecutors have moved for summary
judgment on jurisdictional grounds and on CAI’s right
of association claim only. (ECF No. 100.) CAI and the
State Bar have each moved for summary judgment on
each of the six claims brought by CAI. (ECF Nos. 103,
112.) As State Prosecutors raise the threshold issue
of whether the Court can consider CAI’s claims, the
Court will first consider their motion.
A.

State Prosecutors’
Summary Judgment
1.

Motion

for

Standing and Ripeness

State Prosecutors argue that CAI cannot
satisfy the requirements of standing doctrine or

30a
ripeness doctrine because CAI did not face a credible
threat of prosecution before it brought suit. (ECF No.
101 at 6–20.) CAI contends that it does have standing
to sue on the ground that such a threat exists. (ECF
No. 117 at 4–11.) The Court observes that “the Article
III standing and ripeness issues in this case ‘boil down
to the same question.’”2 See Susan B. Anthony List v.
Driehaus, 134 S. Ct. 2334, 2341 n.5 (2014) (quoting
MedImmune, Inc. v. Genentech, Inc., 549 U.S. 118,
128 n. 8 (2007)). Accordingly, the Court will consider
State Prosecutors’ arguments concerning standing
and ripeness simultaneously, characterizing the
discussion as one involving “standing.”
Article III limits the jurisdiction of federal
courts to cases and controversies. U.S. Const. art. III,
§ 2. Standing doctrine is “[o]ne element of the caseor-controversy requirement,” and a plaintiff that
invokes federal jurisdiction must accordingly
establish standing to sue. Clapper v. Amnesty Int’l,
As the Supreme Court has explained, “[t]he
justiciability problem that arises, when the party seeking
declaratory relief is himself preventing the complained-of-injury
from occurring, can be described in terms of standing . . . or in
terms of ripeness.” MedImmune, Inc. v. Genentech, Inc., 549 U.S.
118, 128 n.8 (2007). As applied to this factual scenario, the
imminence requirement of standing doctrine and the hardship
prong of ripeness doctrine require courts to conduct similar
inquiries. For example, standing doctrine requires a cognizable
injury that will occur in the future to be imminent. Lujan v.
Defs. of Wildlife, 504 U.S. 555, 560 (1992). Similarly, ripeness
doctrine requires courts to ask whether a plaintiff will suffer
some hardship if the court declines to consider an issue at a
certain time. Doe v. Va. Dep’t of State Police, 713 F.3d 745, 758
(4th Cir. 2013). Thus, when evaluating the cognizability of a
future injury, both doctrines ask courts to determine whether
that prospective harm will affect the plaintiff soon enough to
justify the invocation of federal jurisdiction.
2

31a
133 S. Ct. 1138, 1146 (2013). A plaintiff has standing
upon demonstrating an injury that is “concrete,
particularized, and actual or imminent; fairly
traceable to the challenged action; and redressable by
a favorable ruling.” Id. at 1147. A plaintiff has
standing to bring a “pre-enforcement challenge” to a
statute when the plaintiff “faces a credible threat of
prosecution” under that law. N.C. Right to Life, Inc.
v. Bartlett, 168 F.3d 705, 710 (4th Cir. 1999). Further,
when “the State has not disclaimed any intention of
enforcing” the challenged statute, a plaintiff “need not
actually violate” that statute, “or be proactively
threatened with prosecution prior to violation, in
order to have standing to challenge its
constitutionality.” Does 1–5 v. Cooper, 40 F. Supp. 3d
657, 671–72 (M.D.N.C. 2014); see MedImmune, Inc.,
549 U.S. at 129 (“The plaintiff’s own action (or
inaction) in failing to violate the law eliminates the
imminent threat of prosecution, but nonetheless does
not eliminate Article III jurisdiction.”).
The Court concludes that CAI has standing to
bring its claims because it faces a credible threat of
prosecution under the UPL Statutes. The Court’s
justification for this conclusion remains unchanged
from the Court’s earlier ruling on this issue:
State Prosecutors have not stated that
they would refrain from prosecuting CAI
for violating the UPL Statutes. Nor have
State Prosecutors stated that they
disagree with the State Bar’s proposed
ethics opinion issued to CAI. To the
contrary, State Prosecutors and the
State Bar vigorously contend that CAI
lacks the right to provide its members

32a
with legal advice and services. CAI need
not subject itself to criminal prosecution
to establish standing to challenge the
UPL Statutes. . . . With the injury-in-fact
requirement satisfied, CAI clears the
other two hurdles for standing:
causation and redressability.
Capital Associated Indus., Inc., 129 F. Supp. 3d at
301–02. State Prosecutors advance several related,
yet equally unavailing, arguments to counter the
conclusion that CAI faces a credible threat of
prosecution. (ECF No. 101 at 6–15.)
State Prosecutors contend that CAI lacks
standing because (1) the record contains no evidence
of a pending prosecution against CAI, (id. at 7; see id.
at 12–13); (2) CAI’s plan is insufficiently specific, (id.
at 7–8; 15–16); (3) the record contains no evidence of
UPL prosecutions of “licensed attorneys, business
association or corporation attorneys by the Attorney
General or these two District Attorneys,” (id. at 7; see
id. at 11); (4) North Carolina law does not allow
prosecutors to agree to refrain from enforcing the law,
(id. at 13–15; 17–20); and (5) CAI has provided no
evidence to support its “theory that the State Bar, or
any other person, association or entity can make a
referral to the Attorney General or a District
Attorney, and have that referral automatically result
in a prosecution for” the unauthorized practice of law,
(ECF No. 101 at 16–17).
The Court does not find State Prosecutors’
arguments persuasive. First, CAI is not required to
submit evidence that it faces a pending prosecution in
order for the threat of prosecution to be credible. CAI

33a
could only satisfy such a requirement by engaging in
the prohibited conduct, which the law does not
require it to do. See MedImmune, Inc., 549 U.S. at
128–29. Second, CAI’s plan is sufficiently specific to
allow the State Bar to conclude that the plan would
constitute the unauthorized practice of law. (See ECF
No. 42-2.) This conclusion by the State Bar is
sufficient to subject CAI to criminal liability under
North Carolina law and thus establish a threat of
prosecution. See N.C. Gen. Stat. § 84-7.3 Third, the
fact that North Carolina has not prosecuted a
business association for the unauthorized practice of
law is immaterial to the standing inquiry.4 Fourth,
the question of whether North Carolina law allows
district attorneys to disavow their enforcement of
state law is also irrelevant. Since State Prosecutors
have not refused to enforce the UPL Statutes, CAI
faces a credible threat of prosecution. Finally,
contrary to State Prosecutors’ contention, the Court
concludes that North Carolina law requires the
State’s district attorneys to indict individuals or
N.C. Gen. Stat. § 84-7 states that: “[U]pon the
application of any member of the Bar, or of any bar association,
of the State of North Carolina . . . it shall be the duty of the
district attorneys of this State to indict any person, corporation,
or association of persons upon the receipt of information of the
violation of the [UPL Statutes].” N.C. Gen. Stat. § 84-7
(emphasis added).
3

State Prosecutors rely on Poe v. Ullman, 367 U.S. 497
(1961), to support this argument. (ECF No. 101 at 8.) In Poe, the
Supreme Court concluded that a state’s decision not to enforce a
statute over an eighty-year period renders the threat of
prosecution too speculative to satisfy federal jurisdictional
requirements. Poe, 367 U.S. at 508. However, Poe does not
support the State Prosecutors’ argument because State
Prosecutors acknowledge that the State has prosecuted
individuals under the UPL Statutes. (ECF No. 101 at 11.)
4

34a
entities who allegedly violate the UPL Statutes once
a district attorney receives notice of the alleged
violation.
See Disciplinary Hearing Comm’n v.
Frazier, 556 S.E.2d 262, 264 (N.C. 2001) (“The duty
imposed on district attorneys by N.C.G.S. § 84-7 is not
to be ignored.”). The Court concludes that CAI does
have standing as a matter of law and thus State
Prosecutors have failed to carry their burden.
Accordingly, State Prosecutors are not entitled to
summary judgment on jurisdictional grounds.
2.

Right of Association

The Court will next address State Prosecutors’
right of association argument. The Court will address
this argument separately from its discussion of the
cross-motions brought by CAI and the State Bar
because State Prosecutors’ argument rests on
different grounds. State Prosecutors contend that
they are entitled to summary judgment on CAI’s right
of association claim solely because, according to them,
CAI has not produced any evidence “to support CAI’s
efforts to categorize its members as ‘marginalized
individuals who were actually being denied channels
to vindicate rights.’” (ECF No. 101 at 15 (quoting
Capital Associated Indus., Inc., 129 F. Supp. 3d at
293).)
CAI does not respond directly to this
contention. CAI merely states that: “Although the
State raises several arguments, the theme of its
challenges is the familiar refrain that CAI lacks
standing in this case.” (ECF No. 117 at 4.)
It appears that State Prosecutors may have
misconstrued the Court’s Preliminary Injunction
Order, in which the Court concluded that “[p]aying
more than desired for the assistance of outside

35a
counsel does not place CAI and its employer-members
in the same category as union workers, minorities, or
other marginalized individuals who were actually
being denied channels to vindicate rights protected by
the United States Constitution or federal law.”
Capital Associated Indus., Inc., 129 F. Supp. 3d at
293. In raising this argument, State Prosecutors
appear to construe that conclusion as a rule that CAI
must satisfy in order to prevail on its right of
association claim. However, in the Preliminary
Injunction Order, the Court also stated that it “d[id]
not foreclose the possibility that the activities CAI
and its members wish to undertake may be entitled to
First Amendment protection.” Id. at 292. The right of
association protected under the First Amendment
extends beyond marginalized individuals who are
denied access to the courts. See Roberts v. U.S.
Jaycees, 468 U.S. 609, 622 (1984) (concluding that the
right of association protects efforts to join “with others
in pursuit of a wide variety of political, social,
economic, educational, religious, and cultural ends”).
Accordingly, the Court concludes that State
Prosecutors have not met their burden of showing
that they are entitled to judgment as a matter of law
on CAI’s right of association claim. Having concluded
that State Prosecutors have failed to carry their
burden on the two issues raised in their motion, the
Court will deny State Prosecutors’ motion for
summary judgment.
B.

Cross-Motions for Summary Judgment

The Court next turns to the cross-motions for
summary judgment brought by CAI and the State

36a
Bar.5 Each party has moved for summary judgment
on each of the six claims brought by CAI.
At the outset, the Court recognizes that CAI
has brought an as-applied challenge with respect to
each of its claims. (ECF No. 1 ¶ 4; ECF No. 125 at 2
n.1.) The State Bar argues, however, that even
though CAI cannot succeed on its constitutional
claims (whether they are construed as facial or as
applied), CAI has presented insufficient facts for the
Court to consider CAI’s claims on an as-applied basis.
(See ECF No. 123 at 6–7.) The Court agrees with the
State Bar’s observation that CAI appears to prefer a
limited record.
Nonetheless, while this Court
previously concluded that the record was too
“skeletal” for CAI to meet its burden of demonstrating
a clear likelihood of success on the merits, as was
required to prevail on its motion for a preliminary
injunction, see Capital Associated Indus., Inc., 129 F.
Supp. 3d at 296, the Court concludes that the record
is adequate to consider CAI’s as-applied challenge at
this stage of the proceedings. Moreover, the Supreme
Court has expressed a strong preference for avoiding
State Prosecutors respond to CAI’s motion by
contending that CAI has abandoned its claims on the grounds
that CAI’s Motion and accompanying brief “do not mention the
State prosecutors in argument . . . and offer no evidence in
support” of CAI’s claims against State Prosecutors. (ECF No. 118
at 5.) State Prosecutors further contend that CAI lacks standing
and that its claims are not ripe. (Id. at 6.) The Court concludes
that CAI has not abandoned its claims as it has briefed each
issue. See Newton v. Astrue, 559 F. Supp. 2d 662, 670 (E.D.N.C.
2008) (concluding that a litigant abandoned her claim when she
“ha[d] not briefed [an] issue,” and had not “presented it to the
Court with any supporting discussion, argument, or authority”).
The Court also reiterates its conclusion that CAI has standing to
bring each claim and that each claim is ripe.
5

37a
facial challenges. See Richmond Med. Ctr. for Women
v. Herring, 570 F.3d 165, 173 (2009) (citing Wash.
State Grange v. Wash. State Republican Party, 552
U.S. 442, 450–51 (2008)). The Court will consider
CAI’s as-applied challenge to each of its claims.
1.

Substantive Due Process

CAI argues that North Carolina’s UPL
Statutes, as applied to CAI, violate CAI’s right to
substantive due process because the statutes are not
rationally related to any legitimate governmental
interest. (ECF No. 104 at 20–22.) The State Bar
responds that the UPL Statutes are rationally related
to North Carolina’s interest in avoiding potential
“conflicts of interest and loyalty,” as well as its
interest in avoiding the “impairment of attorney
independence.” (ECF No. 113 at 7–11.)
Under the Due Process Clause of the
Fourteenth Amendment, “[n]o State shall . . . deprive
any person of life, liberty, or property, without due
process of law.” U.S. Const. amend. XIV, § 1. The Due
Process Clause has “procedural and substantive
components.” Plyler v. Moore, 100 F.3d 365, 374 (4th
Cir. 1996). When a plaintiff alleges that a state
legislative act violates a right entitled to substantive
due process protection, a court must engage in a twostep inquiry. Hawkins v. Freeman, 195 F.3d 732, 739
(4th Cir. 1999). A court must first determine whether
the right that was allegedly violated is “one of ‘those
fundamental rights and liberties which are,
objectively, deeply rooted in this Nation’s history and
tradition’ and ‘implicit in the concept of ordered
liberty, such that neither liberty nor justice would
exist if they were sacrificed.’” Id. (quoting Washington

38a
v. Glucksberg, 521 U.S. 702, 720–21 (1997)). The
second step depends on the outcome of the first. Id.
If the court determines that the state action
implicates one of those fundamental rights or
liberties, the court must apply strict scrutiny to the
challenged action. Id. If the state action implicates
a right that is neither fundamental nor enumerated,
the challenged state action is subject to rational basis
review, see id., which “is quite deferential,” Colon
Health Ctrs. of Am., LLC v. Hazel, 733 F.3d 535, 548
(4th Cir. 2013). The asserted liberty interest in this
case, namely, the right of a trade association to
provide legal services to its members, is not an
enumerated right, nor has it been identified as a
fundamental right. CAI does not ask this Court to
hold that this right is a fundamental right. The Court
will therefore apply rational basis review.
A challenged state action will survive rational
basis review if it is “rationally related to legitimate
government interests.” Glucksberg, 521 U.S. at 728.
This deferential standard does not require
“mathematical precision in the fit between
justification and means.” Star Sci., Inc. v. Beales, 278
F.3d 339, 348 (4th Cir. 2002) (quoting Concrete Pipe
& Prods. of Cal., Inc. v. Constr. Laborers Pension Tr.
for S. Cal., 508 U.S. 602, 639 (1993)). Rather, “[i]t is
enough that there is an evil at hand for correction,
and that it might be thought that the particular
legislative measure was a rational way to correct it.”
Id. (quoting Williamson v. Lee Optical of Okla., Inc.,
348 U.S. 483, 488 (1955)). This Court’s task,
therefore, is limited to evaluating whether North
Carolina’s chosen means of furthering its legitimate
interests is “at least reasonably related to their

39a
promotion and protection.” Glucksberg, 521 U.S. at
735.
The State Bar has identified two legitimate
state interests that the UPL Statutes further. Those
interests include avoiding “conflicts of interest and
loyalty, and impairment of attorney independence.”6
(ECF No. 113 at 8.) The Court concludes that the
UPL Statutes are reasonably related to the promotion
of these legitimate interests. North Carolina could
rationally decide that non-lawyers would be more
likely than lawyers to encourage the attorneys whom
they supervise to violate the ethical canons that
govern the legal profession. See Jacoby & Meyers, LLP
v. Presiding Justices, 852 F.3d 178, 181, 191–92 (2d
Cir. 2017) (concluding that New York law, which
“prohibits non-attorneys from investing in law firms .
. . easily pass[es] muster under rational basis review”
because “the regulations preclude the creation of
incentives for attorneys to violate ethical norms, such
as those requiring attorneys to put their clients’
interests foremost”). Accordingly, North Carolina’s
prohibition on the unauthorized practice of law, as
applied to CAI, survives rational basis review.7

Relatedly, the North Carolina Supreme Court has
observed that North Carolina’s ban on the corporate practice of
law by entities not managed by attorneys furthers the State’s
legitimate interest in providing for “the better security of the
people against incompetency and dishonesty in an area of
activity affecting general welfare.” State v. Pledger, 127 S.E.2d
337, 339 (N.C. 1962).
6

The Court rejects CAI’s contentions that the UPL
Statutes do not further any public interest concern, and that no
such concern applies to CAI. (See ECF No. 104 at 12–14.)
7

40a
The Court is not persuaded by CAI’s four
arguments that the UPL Statutes cannot survive
rational basis review, based on its contention that
“[t]he facts underlying the general prohibition against
trade associations offering legal services are not
conceivably true.” (ECF No. 104 at 21.) First, CAI
argues that “there is no harm to [its] members or the
public if the trade association’s attorneys comply with
their ethical obligations; and North Carolina
presumes that attorneys will comply with their
ethical obligations.” (Id.; see id. at 14–15.) However,
the State can reasonably conclude that an attorney
who is supervised by a non-attorney would be more
likely to violate those ethical obligations, irrespective
of any presumption that the State might have about
the conduct of supervised attorneys. Second, CAI
contends that “there is no evidence supporting the
existence of the public-interest concerns [underlying
the UPL Statutes] at trade associations.” (Id. at 21;
see id. at 14.) However, the State is under no
obligation to submit evidence supporting the
reasonableness of its legislative choice. See Bostic v.
Schaefer, 760 F.3d 352, 393 (4th Cir. 2014) (noting
that on rational-basis review, “[a]s long as [the
legislature] has a reasonable basis for adopting the
classification, which can include rational speculation
unsupported by evidence or empirical data, the
statute will pass constitutional muster” (second
alteration in original) (quotation marks omitted)).
Nor is the Court persuaded by CAI’s third
argument that “the record shows that North Carolina
has determined that the public-interest concerns are
tolerated for attorneys in other contexts.” (ECF No.
104 at 21; see id. at 15–17.) The Court will not
consider evidence that compares CAI to other entities

41a
that are allowed to provide legal services under North
Carolina’s UPL Statutes. Such an inquiry necessarily
entails a higher level of scrutiny than rational basis
review permits the Court to apply. See Romer v.
Evans, 517 U.S. 620, 632 (1996) (“In the ordinary
case, a law will be sustained if it can be said to
advance a legitimate government interest, even if the
law seems unwise or works to the disadvantage of a
particular group.”). Finally, the Court is not
persuaded by CAI’s fourth argument that “North
Carolina has the ability to regulate trade associations’
legal services through the Rules of Professional
Conduct, a registration scheme, and injunctive relief.”
(ECF No. 104 at 21; see id. at 17–18.) The fact that
North Carolina could have chosen an alternate means
to further its legitimate interests does not disturb the
conclusion that its chosen means is reasonable.8 See
Schweiker v. Wilson, 450 U.S. 221, 235 (1981)
(concluding that under rational basis review, as long
as the state’s chosen means “rationally advances a
reasonable and identifiable governmental objective,
[the Court] must disregard the existence of other
methods that” the Court “perhaps would have
preferred”).

CAI also contends that it could “implement a governing
structure that will confirm and protect its attorneys’ adherence
to the Rules of Professional Conduct, ensure that its attorneys
have control over the legal services they provide, establish
conflict-screening procedures, ensure that confidential
communications and client information are preserved, and
establish attorney oversight over any advertising for legal
services.” (ECF No. 104 at 18.) These purported safeguards do
not alter the Court’s conclusion for the same reason: this
alternative method of furthering the state’s legitimate interests
does not render North Carolina’s chosen means unreasonable.
8

42a
In sum, the Court concludes that CAI has not
met its burden of showing that it is entitled to
judgment as a matter of law on its substantive due
process claim. The State Bar has met its burden and
is accordingly entitled to judgment as a matter of law
on this claim.
2.

Freedom of Speech

CAI next argues that the UPL Statutes violate
the freedom of speech guaranteed by the First
Amendment, as applied to its proposed provision of
legal services. (ECF No. 104 at 27–32.) Specifically,
CAI argues that the UPL Statutes restrict CAI’s
speech on the basis of its content; that the UPL
Statutes prohibit CAI from speaking on the basis of
its corporate identity; and that this restriction on its
speech cannot survive strict scrutiny. (Id. at 28–32.)
The State Bar argues that the UPL Statutes operate
as permissible regulation of a profession and not a
restriction on speech that is entitled to First
Amendment protection. (ECF No. 113 at 28.)
The First Amendment, as applied to the states
through the doctrine of incorporation, establishes
that a state “shall make no law . . . abridging the
freedom of speech.” U.S. Const. amend. I; Cantwell v.
Connecticut, 310 U.S. 296, 303 (1940).
This
prohibition of state infringement on the freedom
of speech does not, however, entitle every
communicative act to constitutional protection. The
Fourth Circuit has held that under the professional
speech doctrine, “a state’s regulation of a profession
raises no First Amendment problem where it
amounts to ‘generally applicable licensing provisions’
affecting those who practice the profession.” Moore-

43a
King v. Cty. of Chesterfield, 708 F.3d 560, 569 (4th Cir.
2013) (quoting Lowe v. SEC, 472 U.S. 181, 232 (1985)
(White, J., concurring)); see Accountants Soc’y of Va.
v. Bowman, 860 F.2d 602, 604 (4th Cir. 1988)
(“Professional regulation is not invalid, nor is it
subject to first amendment strict scrutiny, merely
because it restricts some kinds of speech.”).
The Fourth Circuit has discussed the
appropriate test to determine whether the
professional speech doctrine applies in Moore-King v.
County of Chesterfield, 708 F.3d 560 (4th Cir. 2013),
and Accountants Society of Virginia v. Bowman, 860
F.2d 602 (4th Cir. 1988). These cases instruct that if
a speaker “takes the affairs of a client personally in
hand and purports to exercise judgment on behalf of
the client in the light of the client’s individual needs
and circumstances,” then the statute operates as
professional regulation that is not subject to First
Amendment scrutiny. Moore-King, 708 F.3d at 569
(quoting Bowman, 860 F.2d at 604). In contrast, if a
speaker “does not purport to be exercising judgment
on behalf of any particular individual,” Bowman, 860
F.2d at 604 (quoting Lowe, 472 U.S. at 232 (White, J.,
concurring)), but instead “engages in public
discussion and commentary,” then the statute
operates as a restriction on speech that is subject to
First Amendment scrutiny, Moore-King, 708 F.3d at
569. Accordingly, under this test, a statute either
operates as professional regulation that is not subject
to First Amendment scrutiny, or a restriction on
speech that is subject to First Amendment scrutiny.
See Moore-King, 708 F.3d at 569.
CAI seeks to provide legal services to
individual members, which will require it to exercise

44a
judgment on behalf of particular members in the
light of those members’ individual needs and
circumstances. See Moore-King, 708 F.3d at 569. CAI
does not plan to engage in “public discussion and
commentary,” id., through the provision of its legal
services. Further, the UPL Statutes, as applied to
CAI, “amount to ‘generally applicable licensing
provisions,’” id. (quoting Lowe, 472 U.S. at 232 (White
J., concurring)). Any “[p]rofessional corporation” that
seeks to provide legal services in North Carolina can
render those services “subject to the applicable rules
and regulations adopted by . . . the licensing board,”
which in this case, is the North Carolina State Bar.
N.C. Gen. Stat. §§ 55B-2(4)–(6), 55B-12(a).
Therefore, the professional speech doctrine applies in
this case. Accordingly, as applied to CAI, the UPL
Statutes operate as professional regulation that is not
subject to First Amendment scrutiny on freedom of
speech grounds.9
CAI argues that its proposed legal services are
pure speech, as opposed to conduct (ECF No. 104 at
28–30), however this distinction is immaterial. CAI
contends that its provision of legal services would
constitute speech, and not conduct, because it will be
required to communicate in order to provide its
proposed services. (Id.) There is no question that
CAI’s provision of legal services would require it to
communicate with its member-clients. Rather, the
question in this case is whether the type of
communication that the UPL Statutes restrict is
The Court will not analyze the UPL Statutes as
content-based restrictions, as CAI contends that the Court
should. See Moore-King, 708 F.3d at 567–70 (analyzing a
licensing scheme for fortune tellers under the professional
speech doctrine and not as a content-based restriction).
9

45a
entitled to First Amendment protection. For the
reasons stated above, the Court concludes that CAI’s
proposed communicative acts fall under the
professional speech doctrine and are therefore not
entitled to First Amendment protection.
CAI also argues that the UPL Statutes violate
freedom of speech because the statutes impermissibly
prohibit CAI from speaking on the basis of its identity
as a corporation. (ECF No. 104 at 30–31.) The Court
rejects this assertion for two reasons. First, as stated
above, the UPL Statutes operate as professional
regulation that is not subject to First Amendment
scrutiny under Fourth Circuit precedent. Therefore,
no First Amendment bar to government regulation of
speech on the basis of a speaker’s corporate identity
could apply in this case. Cf. Citizens United v. FEC,
558 U.S. 310, 364 (2010). Second, to the extent that
any First Amendment bar to regulatory distinctions
based on a speaker’s corporate identity could apply to
prohibit professional regulation as a general matter,
that First Amendment bar would present no issue in
this case. North Carolina does not bar CAI from
providing legal services “solely because CAI is a
corporation,” (ECF No. 104 at 30), as CAI contends.
The UPL Statutes do “not apply to corporations
authorized to practice law under the provisions of
Chapter 55B of the General Statutes of North
Carolina.” N.C. Gen. Stat. § 84-5(a) (emphasis added).
North Carolina permits corporations to provide legal
services, subject to the state’s ordinary regulation of
the legal profession. Id. §§ 55B-2(4)–(6), 55B-12(a).
Thus, CAI’s corporate identity poses no bar to its
ability to engage in professional speech, which
nonetheless remains unprotected by the First
Amendment.

46a
CAI has failed to carry its burden that it is
entitled to judgment as a matter of law on its freedom
of speech claim. Conversely, the State Bar has met its
burden.
3.

Right of Association

CAI next argues that its members have a
constitutionally protected right to associate to provide
group legal services, relying on a line of Supreme
Court cases that it characterizes as NAACP v. Button
and its progeny,10 to support this argument. (ECF No.
104 at 22–23.) Further, CAI argues that North
Carolina’s infringement of that right cannot survive
strict scrutiny. (Id. at 26–27.) The State Bar counters
that NAACP v. Button and its progeny do not extend
the right of association to protect CAI and its plan to
provide legal services because CAI’s goals are to
increase revenue and reduce its members’ expenses,
which are not entitled to constitutional protection.
(ECF No. 113 at 12–28.)
The Supreme Court has recognized the right to
associate as a means of protecting the freedom to
engage collectively in activities that are entitled to
First Amendment protection. Roberts, 468 U.S. at 622
(“[W]e have long understood as implicit in the right to
engage in activities protected by the First
The following cases comprise the line of cases that CAI
references as “NAACP v. Button and its progeny”: NAACP v.
Button, 371 U.S. 415 (1963), Brotherhood of Railroad Trainmen
v. Virginia ex rel. Virginia State Bar, 377 U.S. 1 (1964), United
Mine Workers of America, District 12 v. Illinois State Bar Ass’n,
389 U.S. 217 (1967), United Transportation Union v. State Bar
of Michigan, 401 U.S. 576 (1971), and In re Primus, 436 U. S.
412 (1978).
10

47a
Amendment a corresponding right to associate with
others in pursuit of a wide variety of political, social,
economic, educational, religious, and cultural ends.”).
In NAACP v. Button and its progeny,11 the Supreme
Court held that state actions that regulate the
practice of law violate the right of association when
those laws burden the collective exercise of protected
First Amendment activity. E.g., United Mine Workers
of Am., Dist. 12 v. Ill. State Bar Ass’n, 389 U.S. 217,
223 (1967); Bhd. of R.R. Trainmen v. Virginia ex rel.
Va. State Bar, 377 U.S. 1, 5–6 (1964). The challenged
state prohibitions in these cases took many different
forms: the regulations included (1) prohibitions on
legal solicitation, In re Primus, 436 U.S. 412, 418–21
(1978), Bhd. of R.R. Trainmen, 377 U.S. at 4–5,
Button, 371 U.S. at 419; (2) a prohibition on the
unauthorized practice of law, United Mine Workers,
389 U.S. at 218; and (3) an injunction that restrained
a union from engaging in various activities related to
the provision of legal services, United Transp. Union
v. State Bar of Mich., 401 U.S. 576, 579 n.4 (1971).
Despite the differences in the various regulations
outlined in these cases, in each, the prohibited state
action operated to infringe, not only the right to
associate, but also the exercise of some correlating
First Amendment right. See, e.g., In re Primus, 436
U.S. at 431. These First Amendment rights included:
(1) the right to free speech, see In re Primus, 436 U.S.
at 431 (concluding that the appellant’s activities
“come[ ] within the generous zone of First
This Court in its Preliminary Injunction Order
engaged in a comprehensive discussion of each of the cases that
it refers to as “NAACP v. Button and its progeny.” The Court
references that discussion for context here. See Capital
Associated Indus., Inc., 129 F. Supp. 3d at 289–92.
11

48a
Amendment protection reserved for associational
freedoms,” in part, because “[t]he ACLU engages in
litigation as a vehicle for effective political
expression”); see also Button, 371 U.S. at 431 (“The
NAACP is not a conventional political party; but the
litigation it assists . . . makes possible the distinctive
contribution of a minority group to the ideas and
beliefs of our society. For such a group, association for
litigation may be the most effective form of political
association.”) (emphasis added)); and (2) the right to
petition the government for redress of grievances, see
United Transp. Union, 401 U.S. at 585 (“[C]ollective
activity undertaken to obtain meaningful access to
the courts is a fundamental right within the
protection of the First Amendment”); see also United
Mine Workers, 389 U.S. at 221–22 (“We hold that the
freedom of speech, assembly, and petition guaranteed
by the First and Fourteenth Amendments gives
petitioner the right to hire attorneys on a salary basis
to assist its members in the assertion of their legal
rights.” (footnote omitted)); see also Bhd. of R.R.
Trainmen, 377 U.S. at 5 (“[T]he First Amendment’s
guarantees of free speech, petition and assembly give
railroad workers the right to gather together for the
lawful purpose of helping and advising one another in
asserting the rights Congress gave them.”).
Here, North Carolina’s prohibition under the
UPL Statues as applied to CAI and its’ proposed
provision of legal services does not violate the right of
association because CAI’s proposal would not further
the collective exercise of any activity entitled to First
Amendment protection. CAI proposes to provide its
members “employment-related legal advice and
services” that could include drafting employment,
separation, and non-compete agreements, reviewing

49a
employment
policies
and
handbooks,
and
representation before the EEOC. (ECF No. 105-1
¶ 34, 44.) In addition, CAI alleges in its Complaint
that it is being precluded from “earning revenues by
employing licensed attorneys to provide [this] legal
advice and services to its members.” (ECF No. 1 ¶ 98.)
Unlike the clear constitutional objectives advanced by
Button and its progeny, CAI has failed to provide
evidence that any activity for which it claims a right
to associate is deserving of First Amendment
protection. The proposed legal services would not
include assistance with litigation or the vindication of
any statutory rights. (ECF No. 106-1 at 64–67.) They
would not further the right to free speech pertaining
to political expression as in Button and Primus; nor
would they further the right to petition the
government for redress before a court or an agency as
in United Transportation Workers, Trainmen, or Mine
Workers, by, for example, advising CAI members as to
how they might vindicate their constitutional or
statutory rights. CAI’s characterization of Button
and its progeny as establishing a First Amendment
right to undertake “a broad range of group legal
services” overstates the breadth of these holdings.
(See ECF 104 at 23.)
Because CAI’s proposed provision of legal
services would not further the exercise of any
protected First Amendment activity, CAI is not
entitled to any corresponding First Amendment
associational protection merely because the activities
would be undertaken collectively. CAI has failed to
meet its burden on its right of association claim. The
State Bar is accordingly entitled to judgment as a
matter of law on this claim.

50a
4.

Vagueness

CAI next argues that the UPL Statutes are
unconstitutionally vague as applied to its current and
proposed
activities,
(ECF
104
at
32–34),
characterizing them as “sweeping and opaque
restrictions that fail to give sufficient guidance as to
what constitutes legal advice,” (id. at 33). The State
Bar responds that the UPL Statutes’ prohibition on
giving legal advice is not vague, because the term
“legal advice” is well-defined, and further CAI
understands the term. (ECF No. 113 at 30–33.)
A claim that a statute is void-for-vagueness
arises under the Due Process Clause. See Holder v.
Humanitarian Law Project, 561 U.S. 1, 18 (2010).
The statute will violate due process on vagueness
grounds when it “fails to provide a person of ordinary
intelligence fair notice of what is prohibited, or is so
standardless that it authorizes or encourages
seriously discriminatory enforcement.” Martin v.
Lloyd, 700 F.3d 132, 135 (4th Cir. 2012) (quoting
United States v. Williams, 553 U.S. 285, 304 (2008)).
CAI contends that the UPL Statutes fail to provide
sufficient notice of the conduct prohibited by the term
“legal advice.”
(ECF 104 at 33.) Despite this
contention, CAI appears to understand the term
“legal advice” and has repeatedly used the term to
describe its current and proposed activities. Bruce
Clarke, CAI’s President and CEO, demonstrated his
understanding of that term in a 2013 communication
with the State Bar when he noted that legal advice
entails “applying a legal solution to specific facts.”
(ECF No. 42-1 at 2.) Further, he confirmed in his
deposition that he understands a “reasonable
definition” of the term following his review of the

51a
General Statutes. (ECF No. 113-1 at 124–25.) In its
Complaint, CAI alleges that it currently provides its
members “non-legal advice” through its “Advice and
Resolution Team.” (ECF No. 1 ¶¶ 18, 19.) Mr. Clarke
also described the proposed services that form the
basis of this suit as offering “employment-related
legal advice and services.” (ECF No. 105-1 ¶ 34,
44.) Indeed, as argued by the State Bar, CAI’s
Complaint alleges that CAI’s attorneys are “‘educated
and licensed’ with respect to ‘giving legal advice,’ and
‘could render to CAI members competent legal
advice.’” (ECF No. 113 at 31 (quoting ECF No. 1
¶¶ 34, 37) (emphasis omitted).) There is little question
that CAI understands that the UPL Statutes prohibit
CAI from offering legal advice as applied to its current
and proposed activities. See Humanitarian Law
Project, 561 U.S. at 22 (concluding that statutory
terms challenged on vagueness grounds “readily and
naturally cover[ed] plaintiffs’ conduct” when the
“plaintiffs themselves ha[d] repeatedly used the
terms . . . throughout th[e] litigation” to describe their
own conduct).
The Court is also not persuaded by CAI’s
argument that “CAI cannot identify the line between
lawful compliance advice and unlawful legal advice.”
(See ECF No. 104 at 34.) The vagueness doctrine does
not require “perfect clarity and precise guidance,”
Ward v. Rock Against Racism, 491 U.S. 781, 794
(1989), rather it requires only “fair notice” of
prohibited conduct, Martin, 700 F.3d at 135. Nor is
the Court persuaded by CAI’s reliance on hypothetical
situations involving the question of whether the term
“legal advice” could apply to prohibit a passenger from
communicating a speed limit to a driver. (See ECF
No. 104 at 33–34.) See Williams, 553 U.S. at 306

52a
(“What renders a statute vague is not the possibility
that it will sometimes be difficult to determine
whether the incriminating fact it establishes has been
proved; but rather the indeterminacy of precisely
what that fact is.”).
Hypothetical situations
unrelated to CAI’s specific conduct are irrelevant to
its
as-applied
vagueness
challenge.
See
Humanitarian Law Project, 561 U.S. at 22–23.
The Court concludes that CAI’s vagueness
claim lacks merit because there is no question that
CAI has fair notice of the conduct that the term “legal
advice” prohibits, as applied to CAI’s current and
proposed activities. See Humanitarian Law Project,
561 U.S. at 21 (“[T]he dispositive point here is that
the statutory terms are clear in their application to
plaintiff’s proposed conduct, which means that
plaintiffs’ vagueness challenge must fail.”). For the
reasons outlined, the State Bar is entitled to
judgment as a matter of law on this claim.
5.

Monopoly Clause

CAI next contends that the UPL Statutes, as
applied to its proposed legal services, violate the
Monopoly
Clause
of
the
North
Carolina
12
Constitution. (ECF No. 104 at 35–36.) CAI argues
that the UPL Statutes, as applied, “merely protect the
economic interests of attorneys by sheltering
attorney-owned entities from competition with nonattorney-owned entities.” (Id. at 36.) The State Bar
argues that North Carolina courts have concluded
that the UPL Statutes do not violate the Monopoly
The Monopoly Clause states that “[p]erpetuities and
monopolies are contrary to the genius of a free state and shall
not be allowed.” N.C. Const. art. I, § 34.
12

53a
Clause, and that those decisions bind this Court.
(ECF No. 113 at 34–35.)
A federal court hearing a state-law claim is
obligated to apply the law of the state as interpreted
by that state’s highest court. See Wetzel v. Edwards,
635 F.2d 283, 289 (4th Cir. 1980) (“[I]t is well-settled
that the federal courts are bound by the
interpretation placed on state statutes by the highest
courts of the state.”). The North Carolina Supreme
Court has twice held that the state’s prohibition on
the corporate practice of law does not violate the
North Carolina Constitution. See Gardner v. N.C.
State Bar, 341 S.E.2d 517, 523 (N.C. 1986)
(concluding that the prohibition of the corporate
practice of law does not violate “Article I of the North
Carolina Constitution”); Seawell v. Carolina Motor
Club, 184 S.E. 540, 544 (N.C. 1936) (concluding that
the prohibition of the corporate practice of law
“offends neither the State nor Federal Constitution”).
While neither decision presented the precise legal
question before the Court in the present case, namely,
whether the Monopoly Clause of the North Carolina
Constitution tolerates the state’s prohibition on the
corporate practice of law, as applied to CAI’s proposed
legal services, the Court finds them instructive,
though not dispositive.
The Court finds more persuasive, however, two
century-old opinions of the North Carolina Supreme
Court, which upheld the state’s power to regulate two
other professions against challenges that those
regulatory schemes violated the Monopoly Clause. In
the first, State v. Call, 28 S.E. 517 (N.C. 1897), the
North Carolina Supreme Court held that the state’s
regulation of the medical profession, as applied to an

54a
individual who was indicted for practicing without a
license, did not violate the Monopoly Clause. Call, 28
S.E. at 517. In so holding, the court reasoned that the
state can regulate “persons desiring to practice law or
medicine . . . or exercise other callings, whether
skilled trades or professions, affecting the public and
which require skill and proficiency,” and that such
regulation “is in no sense the creation of a monopoly
or special privileges.” Id. In the second, St. George v.
Hardie, 60 S.E. 920 (N.C. 1908), the North Carolina
Supreme Court held that the State’s regulation of
“pilots and pilotage” did not violate the Monopoly
Clause, reasoning that the power to regulate and
license pilots “comes within the principle upon which
the state prescribes the qualifications of those who
are admitted to practice law . . . and other callings and
professions so related to the public.” St. George, 60
S.E. at 923.
In this case, CAI’s Monopoly Clause challenge
fails for the same reasons articulated by the North
Carolina Supreme Court in State v. Call and St.
George v. Hardie. See Assicurazioni Generali, S.p.A.
v. Neil, 160 F.3d 997, 1002 (4th Cir. 1998) (“It is
axiomatic that in determining state law a federal
court must look first and foremost to the law of the
state’s highest court, giving appropriate effect to all
its implications. A state’s highest court need not have
previously decided a case with identical facts for state
law to be clear. It is enough that a fair reading of a
decision by a state’s highest court directs one to a
particular conclusion.”).
The UPL Statutes, as
applied to CAI’s proposal to provide legal services,
regulate those persons and entities that North
Carolina has judged to be qualified to practice law and

55a
are “in no sense the creation of a monopoly,” Call, 28
S.E. at 517.
CAI does not discuss State v. Call and St.
George v. Hardie in its brief. (ECF No. 104 at 35–36.)
Instead, CAI relies heavily on a different case, State
v. Ballance, 51 S.E.2d 731 (N.C. 1949), where the
North Carolina Supreme Court held that a licensing
scheme that applied to photographers offended the
Monopoly Clause. Ballance, 51 S.E.2d at 736. The
Court does not find State v. Ballance persuasive,
however, as the North Carolina Supreme Court’s
conclusion
that
the
licensing
scheme
for
photographers violated the Monopoly Clause followed
from its conclusion that photography was “in essence,
a private business unaffected in a legal sense with
any public interest.” Id. at 735. The legal profession,
in contrast, could not be more different. See Pledger,
127 S.E.2d at 339 (concluding that the UPL Statutes
were “not enacted for the purpose of conferring upon
the legal profession an absolute monopoly in the
preparation of legal documents; [the] purpose is for
the better security of the people against incompetency
and dishonesty in an area of activity affecting general
welfare”). The Court therefore finds that State v.
Ballance does not apply given the differences between
that case and the present one. Accordingly, the Court
concludes that the State Bar is entitled to judgment
as a matter of law on this claim.
6.

Commercial Speech

Finally, CAI contends that the UPL Statutes
unconstitutionally prohibit CAI from advertising
legal services. (ECF No. 104 at 34–35.) Specifically,
CAI argues that “[b]ecause CAI has a constitutional

56a
right to offer legal advice and services to its members,
this prohibition is unconstitutional.” (Id. at 34.) The
State Bar argues, on the other hand, that “[t]o have a
colorable commercial speech claim [under the First
Amendment], CAI must establish that ‘the regulated
speech concerns lawful activity,’ which it cannot do.”
(ECF No. 123 at 31 (quoting ECF No. 104 at 35).) CAI
and the State Bar agree that CAI’s commercial
advertising claim turns on CAI’s contention that its
provision of legal services is lawful. (ECF Nos. 104 at
34–35; 113 at 33; 123 at 31.) Here, because CAI has
failed to establish that it has a constitutionally
protected right to provide legal services, doing so
would constitute unlawful activity under the UPL
Statutes. The Supreme Court in Central Hudson Gas
& Electric Corp. v. Public Service Commission of New
York, 447 U.S. 557 (1980), makes clear that First
Amendment protection of commercial speech can only
apply when the underlying activity is lawful. Centr.
Hudson Gas & Elec. Corp., 447 U.S. at 564; see Educ.
Media Co. at Va. Tech v. Insley, 731 F.3d 291, 298 (4th
Cir. 2013). Thus, CAI has no First Amendment right
to advertise legal services since its right to provide
such services is unlawful under the UPL Statutes.
Accordingly, the State Bar, and not CAI, is entitled to
judgment as a matter of law on this claim.
IV.

CONCLUSION

For the reasons stated herein, State
Prosecutors have not carried their burden of
demonstrating that CAI lacks standing or that State
Prosecutors are entitled to judgment as a matter of
law on CAI’s right of association claim. State
Prosecutors’ motion, (ECF No. 100), must therefore be
denied.
CAI has not carried its burden of

57a
demonstrating that it is entitled to judgment as a
matter of law on any of its six claims; CAI’s motion,
(ECF No. 103), must, therefore, be denied. The State
Bar, however, has shown that it is entitled to
judgment as a matter of law on each of CAI’s claims.
Because there is no genuine issue of material fact as
to any claim, the Court concludes that the State Bar
is entitled to summary judgment and its motion, (ECF
No. 112), will be granted, thus dismissing this action.
ORDER
IT IS THEREFORE ORDERED that State
Prosecutors’ Motion for Summary Judgment, (ECF
No. 100), is DENIED.
IT IS FURTHER ORDERED that CAI’s Motion
for Summary Judgment, (ECF No. 103), is DENIED.
IT IS FURTHER ORDERED that the State
Bar’s Motion for Summary Judgment, (ECF No. 112),
is GRANTED, and this case is therefore DISMISSED.
A Judgment dismissing this action will be
entered contemporaneously with this Order.
This, the 19th day of September, 2017.
/s/ Loretta C. Biggs
United States District Judge

